No. 21In the

Supreme Court of the United States
OLAF SÖÖT DESIGN, LLC,
Petitioner,
v.
DAKTRONICS, INC. AND DAKTRONICS HOIST, INC.,
Respondents.
On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Federal Circuit

PETITION FOR A WRIT OF CERTIORARI
James M. Bollinger
Counsel of Record
Magnus Essunger
K atherine Harihar
Gerald E. Porter
Troutman Pepper Hamilton Sanders LLP
875 Third Avenue
New York, NY 10022
(212) 704-6000
james.bollinger@troutman.com
Christopher Browning
Troutman Pepper Hamilton Sanders LLP
305 Church Street, Suite 1200
Raleigh, NC 27609
Counsel for Petitioner
307073

i
QUESTION PRESENTED
In Markman v. Westview Instruments, Inc., 517
US 370 (1996), this Court held that the meaning of
terms in a patent “claim” stands as a question of law
and must be construed by the court. Under the Seventh
Amendment, if requested by the patent owner, the jury
must make the factual determination as to whether the
defendant infringed the patent in light of the court’s claim
construction. Consistent with the Seventh Amendment,
the Markman decision leaves to the jury all factual
determinations beyond the court’s construction of the
claim. The question presented by this petition for writ of
certiorari is:
Whether the Seventh Amendment allows the Federal
Circuit to reverse a jury verdict based on a sua sponte new
claim construction of a term the district court concluded
was not a term of art and construed to have its plain
and ordinary meaning; where the Federal Circuit’s sua
sponte claim construction essentially recasts a specific
infringement factual question, previously decided by the
jury, as a claim construction issue, to be decided de novo
by the appellate court.

ii
PARTIES TO THE PROCEEDING BELOW
AND RULE 29.6 STATEMENT
The caption of the case contains the names of all the
parties to the proceeding.
Petitioner Olaf Sööt Design, LLC has no parent
corporations and no publicly held company owns 10 percent
or more of its stock.

iii
RULE 14.1(B)(III) STATEMENT
The proceedings in federal trial and appellate courts
identified below are directly related to the above-captioned
case in this Court.
Olaf Sööt Design LLC v. Daktronics Inc. and
Daktronics Hoist, Inc., Case No. 1:15-cv-05024 (S.D.N.Y.).
The United States District Court for the Southern District
of New York entered an amended judgment regarding
Petitioner’s patent claims in this matter on August 29,
2019.
Olaf Sööt Design LLC v. Daktronics Inc. and
Daktronics Hoist, Inc., Case Nos. 2019-1009, 2019-1034
(Fed. Cir.). The Federal Circuit entered judgment in this
matter on January 7, 2021. The Federal Circuit denied
Petitioners’ combined petition for panel rehearing and
rehearing en banc on April 19, 2021.

iv
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING BELOW
AND RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . ii
RULE 14.1(B)(III) STATEMENT  . . . . . . . . . . . . . . . .  iii
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . iv
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . . . vii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . .  viii
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STAT U T ORY A N D CONST I T U T IONA L
PROVISIONS INVOLVED . . . . . . . . . . . . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
A. The ’485 Patent’s Fixed Screw-Hollow Hub
Design and Daktronics’ Infringement  . . . . . . . . 5
B. Jury Finds Infringement  . . . . . . . . . . . . . . . . . . . 6

v
Table of Contents
Page
C. Federal Circuit Reversed in Reliance on
O2 Micro . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
REASONS FOR GRANTING THE WRIT . . . . . . . . . . 7
THE 2008 O2 MICRO FEDERAL CIRCUIT
RULING INVADES THE JURY FUNCTION
IN RESOLVING INFRINGEMENT BY
USURPING FACTUAL ASSESSMENTS
RESERVED FOR THE JURY . . . . . . . . . . . . . . . . . 7
A. Under Markman, the Claim Construction
Legal Issue Reserved for the Court Was
Directed to “terms of art” set out in the
patent . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
B. O2 Micro Upends Markman’s Careful
Balance By Authorizing Court Resolution
of Infringement Facts . . . . . . . . . . . . . . . . . . . . . . 8
C. O2 Micro’s Demand That the Court
Determines “Scope” of Ordinary Terms in
the Patent Claim Authorizes the Court to
Resolve the Ultimate Fact of Infringement
in Violation of the Seventh Amendment  . . . . . . 13
D. Neither Markman Nor O2 Micro Justify
Reversal a Jury Verdict by Sua Sponte
Introduction of a New Claim Construction That
was Not Raised at Trial or on Appeal . . . . . . . .  17

vi
Table of Contents
Page
THIS COURT’S REVIEW OF O2 MICRO
IS WARRANTED NOW  . . . . . . . . . . . . . . . . . . . . . 20
A. Guidance on the Proper Limits of O2 Micro
are Necessary  . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
B. This Case is an Ideal Vehicle for Tackling
the O2 Micro Issue . . . . . . . . . . . . . . . . . . . . . . . . 21
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

vii
TABLE OF APPENDICES
Page
A P P E N DI X A — O P I N IO N O F T H E
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT, FILED
JANUARY 7, 2021 . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1a
A PPEN DI X B — M EMOR A N DU M
DECI SION A N D OR DER OF T H E
UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF
NEW YORK, FILED AUGUST 27, 2019 . . . . . . . .  17a
APPENDIX C — OPINION OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF NEW YORK,
FILED OCTOBER 26, 2016 . . . . . . . . . . . . . . . . . . . 67a
APPENDIX D — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE FEDERAL CIRCUIT,
DATED APRIL 19, 2021  . . . . . . . . . . . . . . . . . . . . . 93a

viii
TABLE OF CITED AUTHORITIES
Page
Cases
ActiveVideo Networks, Inc. v.
Verizon Commc’ns, Inc.,
694 F.3d 1312 (Fed. Cir. 2012) . . . . . . . . . . . . . . . . . . 11
Akamai Techs., Inc. v. Limelight Networks, Inc.,
805 F.3d 1368 (Fed. Cir. 2015) . . . . . . . . . . . . . . . . . . 18
Anderson v. City of Bessemer City,
470 U.S. 564 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
Cobalt Boats, LLC v. Brunswick Corp.,
773 F. App’x 611 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . 10
Core Wireless Licensing S.A.R.L. v. Apple Inc.,
899 F.3d 1356 (Fed. Cir. 2018) . . . . . . . . . . . . . . . 18, 19
Creative Internet Advertising Corp. v.
Yahoo!, Inc.,
476 F. App’x 724 (Fed. Cir. 2011) . . . . . . . . . . . . . . . . 10
Dimick v. Schiedt,
293 U.S. 474 (1935)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
E.I. du Pont De Nemours & Company v.
Unifrax I LLC,
921 F.3d 1060 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . 10
Eon Corp. IP Holdings LLC v.
Silver Spring Networks, Inc.,
815 F.3d 1314 (Fed. Cir. 2016)  . . . . . . . . . . . . . . . . . . 10

ix
Cited Authorities
Page
Google LLC v. Oracle Am., Inc.,
141 S. Ct. 1183 (2021)  . . . . . . . . . . . . . . . . . . . . . . . . . 16
GPNE Corp. v. Apple Inc.,
830 F.3d 1365 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . . . 11
Hormel v. Helvering,
312 U.S. 552 (1941)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
Huawei Techs. Co. v. T-Mobile US, Inc.,
2017 WL 4070592 (E.D. Tex. Aug. 29, 2017),
a d opted, 2 017 W L 40 492 51 (E.D. Tex.
Sept. 13, 2017)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Kaneka Corp v. Xiamen Kingdomway Group,
790 F.3d 1298 (Fed. Cir. 2015) . . . . . . . . . . . . . . . . . . 11
Lavender v. Kurn,
327 U.S. 645 (1946) . . . . . . . . . . . . . . . . . . . . . . . . . . . 20
Markman v. Westview Instruments, Inc.,
517 U.S. 370 (1996) . . . . . . . . . . . . . . . . . . . . . . . . passim
Merck & Co, Inc. v.
Teva Pharmaceuticals USA, Inc.,
395 F.3d 1364 (Fed. Cir. 2005) . . . . . . . . . . . . . . . . . . 14
NobelBiz, Inc. v. Glob. Connect, L.L.C.,
701 F. App’x 995 (Fed. Cir. 2017) . . . . . . . . . . . . . . 3, 10

x
Cited Authorities
Page
NobelBiz, Inc. v. Glob. Connect, L.L.C.,
876 F.3d 1326 (Fed. Cir. 2017) . . . . . . . . . . . . 3, 4, 9, 10
NobelBiz, Inc. v. Glob. Connect, L.L.C.,
No. 2016-1104, 2017 WL3044641 (Fed. Cir.
July 19, 2017) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
Nuance Commc’ns, Inc. v.
ABBYY USA Software House, Inc.,
813 F.3d 1368 (Fed. Cir. 2016) . . . . . . . . . . . . . . . . . . 18
O2 Micro v. Beyond Innovation
Technology Co., Ltd.,
521 F.3d 1351 (Fed. Cir. 2008) . . . . . . . . . . . . . . passim
Olaf Sööt Design, LLC v. Daktronics, Inc.,
220 F. Supp. 3d 458 (S.D.N.Y. 2016)  . . . . . . . . . . . . . 20
Olaf Soot Design, LLC v. Daktronics, Inc.,
406 F. Supp. 3d 328 (S.D.N.Y. 2019)  . . . . . . . . . . . . . 16
Omega Patents, LLC v. CalAmp Corp.,
920 F.3d 1337 (Fed. Cir. 2019) . . . . . . . . . . . . . . . . . . 10
Phillips v. AWH Corp.,
415 F.3d 1303 (Fed. Cir. 2005) . . . . . . . . . . . . . . . . . . . 8
Queens University at Kingston v.
Samsung Elecs. Co.,
2015 WL 2250384 (E.D. Tex. May 13, 2015)  . . . . . . 11

xi
Cited Authorities
Page
SciMed Life Systems v.
Advanced Cardiovascular Systems, Inc.,
242 F.3d 1337 (Fed. Cir. 2001) . . . . . . . . . . . . . . . . . . 14
Silicon Graphics, Inc. v. ATI Techs., Inc.,
2007 WL 5614112 (W.D. Wis. Oct. 15, 2007),
aff’d in part, rev’d in part, 607 F.3d 784 (Fed.
Cir. 2010) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
Summit 6, LLC v. Samsung Elecs. Co.,
802 F.3d 1283 (Fed. Cir. 2015) . . . . . . . . . . . . . . . . . . 11
Union Carbide Chems. & Plastics Tech. Corp. v.
Shell Oil Co.,
425 F.3d 1366 (Fed. Cir. 2005), overruled on other
grounds by Cardiac Pacemakers, Inc. v. St. Jude
Med., Inc., 576 F.3d 1348 (Fed. Cir. 2009) . . . . . . . . 11
Statutes and Other Authorities
U.S. Const., Amend. VII . . . . . . . . . . . . . . . . . . . . . . . . 2, 3
28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Rule 50(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .1
Woodward, Definiteness and Particularity in Patent
Claims, 46 Mich. L. Rev. 755, 765 (1948) . . . . . . . . . 14

1
Petitioner Olaf Sööt Design, LLC respectfully
petitions for a writ of certiorari to review the judgment
of the United States Court of Appeals for the Federal
Circuit in this case.
OPINIONS BELOW
The merits opinion of the Federal Circuit is reported
at 839 Fed. App’x 505 and reprinted at App. 1a-16a, infra.
The order of the court of appeals denying rehearing is not
reported and is reprinted at App. 93a-94a.
The Rule 50(b) opinion of the district court is reported
at 406 F. Supp. 3d 328 and reprinted at App. 17a-66a. The
district court’s Markman opinion is reported at 220 F.
Supp. 3d 458and reprinted at App. 67a-92a.
JURISDICTION
The Federal Circuit issued its opinion on January 7,
2021. It denied rehearing and rehearing en banc on April
19, 2021. This Court has jurisdiction under 28 U.S.C. §
1254(1). Pursuant to this Court’s July 19, 2021 Standing
Order, the Court had previously extended the deadline
to file petitions for writs of certiorari in all cases due on
or after the date of that order to 150 days from the date
of the lower court judgment, order denying discretionary
review, or order denying a timely petition for rehearing.
This order applied to all writs of certiorari between March
19, 2020 and July 19, 2021.

2
STATUTORY AND CONSTITUTIONAL
PROVISIONS INVOLVED
U.S. Constitution, Amendment VII, provides:
In suits at common law, where the value in
controversy shall exceed twenty dollars, the
right of trial by jury shall be preserved, and
no fact tried by a jury, shall be otherwise
reexamined in any court of the United States,
than according to the rules of the common law.
INTRODUCTION
The Federal Circuit reversed Petitioner’s jury
infringement verdict by sua sponte rejecting and rewriting
the district court’s “plain and ordinary meaning” claim
construction of a common, easily understood term.
The court thereby resolved the infringement dispute
explicitly reserved for the jury under the guise of claim
construction. Justification of this invasion of clearly factual
matters reserved for jury resolution was premised on an
expansion of the Federal Circuit decision in O2 Micro v
Beyond Innovation Technology Co., Ltd., 521 F.3d 1351
(Fed. Cir. 2008). The expansion of O2 Micro decision
cannot be reconciled with this Court’s long-standing
recognition of the sanctity of the Seventh Amendment
right to trial by jury. As this Court emphasized in Dimick
v. Schiedt, 293 U.S. 474, 486 (1935), “[m]aintenance of
the jury as a fact-finding body is of such importance and
occupies so firm a place in our history and jurisprudence
that any seeming curtailment of the right to a jury trial
should be scrutinized with utmost care.”

3
As illustrated by the decision below, O2 Micro has
been extended by the Federal Circuit to now routinely
displace properly resolved claim construction decisions
and strip litigants of their constitutional right to trial by
jury guaranteed by the Seventh Amendment. This line of
authority within the Federal Circuit extends well beyond
this Court’s Markman ruling and now fundamentally
disrupts the orderly resolution of patent disputes at the
trial level.
District courts across the country are battling with
the O2 Micro issue and their role in resolving potentially
late-breaking disputes and allowing the jury to perform
its required function. The substantive dissent in NobelBiz,
Inc. v. Glob. Connect, L.L.C. recognized this issue:
In cases where the question of “claim scope” is
directly congruent to the ultimate question of
infringement, and the claim terms do not have
a disputed or complex technical meaning, it was
not reversible error for the trial judge to refer
the question of infringement to the jury. The
jury is well suited to evaluate the disclosure
and to compare the claimed technology with the
accused system, including weighing the views
of the dueling expert witnesses.
701 F. App’x 995, 1001 (Fed. Cir. 2017) (Newman, J.
dissenting). This O2 Micro problem has become a wellrecognized trap at the trial level as noted by Judge
O’Malley in her dissent from the denial of rehearing en
banc in NobelBiz:

4
[B]y relying on O2 Micro International Ltd. v.
Beyond Innovation Technology Co., 521 F.3d
1351 (Fed. Cir. 2008), to support its holding, the
majority has added to the growing confusion
regarding the scope of that decision. In the
nearly ten years since O2 Micro issued, this
court has stretched its holding well beyond
the factual circumstances at issue there. In so
doing, we have caused unnecessary difficulties
for district courts, which must manage these
already difficult-enough cases, and have
intruded on the jury’s factfinding role.
876 F.3d at 1326, O’Malley, J., dissenting from denial of
rehearing).
The panel in this matter has applied O2 Micro to now
authorize sua sponte review of a district court’s “plain
and ordinary meaning” claim construction that was not
challenged below or on appeal. In this case, Respondent
proposed that “no construction was necessary” to the
district court at the pre-trial claim construction hearing
(“Markman”), which was accepted by the district court,
used as part of the jury instructions and not appealed by
either party.
During oral argument before the Federal Circuit panel,
when asked directly whether O2 Micro was applicable or
if there was a claim construction dispute between the
parties, Respondent’s counsel stated: “It’s not a claim
construction issue. It’s plain and ordinary meaning.”
Oral Arg. 1 4:38-4:45. Neither O2 Micro nor any other
1. “Oral Arg.” refers to the November 6, 2020 Oral Argument
before the Federal Circuit, available at: http://www.cafc.uscourts.

5
authority permits a review of an issue never appealed nor
even raised at the district court. Without guidance, parties
and district courts will expend significant resources on
litigation and trial, while the specter of O2 Micro looms
even when no “disputed” patent claim terms remain.
The present petition provides this Court with a vehicle
for bringing the Federal Circuit back into line with the
Seventh Amendment and this Court’s cases construing
the Seventh Amendment.
STATEMENT OF THE CASE
A. The ’485 Patent’s Fixed Screw-Hollow Hub Design
and Daktronics’ Infringement
OSD owns the ’485 patent, which is directed to a winch
used to raise and lower scenery and lighting in theatrical
productions. The ’485 patent teaches a winch where a fixed
screw is used to laterally progress a drum, rather than
rotating with the drum. The lead screw engages with an
elongated hub on the drum. The drum and its hub include
a passage to allow entry of the fixed screw, thus the drum
and its drum endcap are hollow. The ’485 patent’s claims
required that the fixed screw enter the “drum.”
Daktronics’ infringing product, the Vortek winch,
used the same arrangement. The Vortek winch includes
a fixed screw anchored to the carriage, and the hollow
hub extending out from the drum endcap to engage the
fixed screw. With the Vortek product, the screw enters
gov/oral-argument-recordings?title=&field_case_number_
value=20-1009&field_date_value2%5Bvalue%5D%5Bdate%5D=.

6
a portion of the drum (the hollow hub), but not into the
remainder of the drum.
B. Jury Finds Infringement
After a two-week trial the jury made the factual
determination that Daktronics’ Vortek product infringed
the ’485 patent. Respondent appealed the jury verdict of
infringement, but never raised any O2 Micro concerns and
never challenged the district court’s plain and ordinary
meaning claim construction.
C. Federal Circuit Reversed in Reliance on O2 Micro
The Federal Circuit reversed, sua sponte rewrote
the plain meaning of “hollow drum” under the guise of O2
Micro, set aside the jury’s factual finding of infringement,
and entered judgment for Daktronics as a matter of law.
Petitioner sought panel and en banc review of the ruling.
The Federal Circuit denied the petition.
The decision below expands a disturbing line of
Federal Circuit decisions that infringes on the right to
trial by jury in patent infringement cases. Certiorari
should be granted to halt the Federal Circuit’s practice
of depriving litigants of their right to trial by jury under
the Seventh Amendment.

7
REASONS FOR GRANTING THE WRIT
THE 2008 O2 MICRO FEDERAL CIRCUIT RULING
INVADES THE JURY FUNCTION IN RESOLVING
INFRINGEMENT BY USURPING FACTUAL
ASSESSMENTS RESERVED FOR THE JURY
A. Under Markman, the Claim Construction Legal
Issue Reserved for the Court Was Directed to
“terms of art” set out in the patent
In Markman, this Court protected important Seventh
Amendment rights by carefully limiting the court’s role
to resolving claim construction issues anchored in the
legal and technical patent record. This balanced ruling
carefully carved out for resolution by the court the legal
claim construction from the overall infringement question
reserved for the jury: “We hold that the construction
of a patent, including terms of art within its claim, is
exclusively within the province of the court.” Markman
v. Westview Instruments, Inc., 517 U.S. 370, 372, (1996)
(emphasis added). Under Markman, the court was
authorized to construe only those disputed terms that
require consideration of the legal and technical record to
discern the appropriate meaning of each term. This Court
limited its reach to “terms of art” by recognizing that
“the Seventh Amendment does not require terms of art in
patent claims to be submitted to the jury.” Markman, 517
U.S. at 383-84 n.9 (emphasis added). Specialized meanings
for disputed claim terms are resolved by the court based
on the Patent Office record and industry practice.
In contrast, absent evidence to the contrary, if the
disputed term is a common English word or phrase it

8
should be given its “ordinary and customary meaning” as
the proper construction. Phillips v. AWH Corp. 415 F.3d
1303, 1314 (Fed. Cir. 2005) (en banc). Where the district
court determines the claim term should be construed with
its ordinary meaning, this is simply a ruling by the court
that nothing exists in the patent’s file history or technical
literature necessitating a specialized construction. The
normal, English usage of the term will suffice. Under
Markman, it remains the jury’s responsibility to decide
infringement – that is, whether the accused product
falls within the scope of the properly construed claim
– a fundamental question of fact reserved for the jury.
Markman, 517 U.S. at 384-91.
B. O2 Micro Upends Markman’s Careful Balance By
Authorizing Court Resolution of Infringement
Facts
This Court’s careful division between the role of the
court and the role of the jury in patent infringement
actions has been upended by O2 Micro. In cases where a
“plain and ordinary meaning” construction controls, the
O2 Micro precedent has, in essence, authorized court
resolution of the protected Seventh Amendment jury
questions of infringement. Federal Circuit panels have
relied on O2 Micro, to resolve disputes, even if factual – as
happened in this case – to discard jury verdicts.
When facing a potential O2 Micro issue, district courts
struggle to discern where a claim construction issue
ends and the infringement question begins. As recently
lamented by a district court, the disruptive impact of O2
Micro is not in dispute:

9
O2 Micro problems are difficult to evaluate with
any confidence during pretrial (or trial, for that
matter) because it is frequently impossible to
delineate between a pure claim construction
argument and a noninfringement argument.
Yet juries are summoned, trials are held, and
verdicts are reached, only to have the case
fall in the O2Micro trap on appeal. See, e.g.,
NobelBiz, Inc. v. Glob. Connect, L.L.C., No.
2016-1104, 2017 WL3044641 (Fed. Cir. July 19,
2017). Short of holding both a jury trial and an
identical bench trial in every patent case, there
is not a clear path around O2 Micro.
Huawei Techs. Co. v. T-Mobile US, Inc., No. 2:16-CV00052JRG-RSP, 2017 WL 4070592, at *1 (E.D. Tex. Aug. 29,
2017), adopted, 2017 WL 4049251 (E.D. Tex. Sept. 13,
2017).
The O2 Micro demands on the court have become a
well-recognized trap at the trial level. Judge O’Malley
further described the dichotomy in her dissent to the en
banc denial in NobelBiz:
O2 Micro’s general rule is easy enough to
state in the abstract: “When . . . parties raise
an actual dispute regarding the proper scope
of the[]claims, the court, not the jury, must
resolve that dispute.”O2 Micro, 521 F.3d at
1360. We have not articulated, however, what
constitutes an “actual dispute” in this context.
While we expect district courts to distinguish
bona fide infringement arguments from those
masquerading as claim construction disputes,

10
we have not provided the lower courts with
effective guidance to do so. As a result, courts
have struggled to strike the delicate balance
between ensuring that they do not permit the
jury to determine claim scope, on the one hand,
and ensuring that they do not encroach upon
the constitutionally mandated function of the
jury to find facts, on the other.
NobelBiz, 876 F.3d at 1327-28.
The Federal Circuit has displaced numerous
infringement decisions premised upon an O2 Micro “plain
and ordinary meaning” claim construction dispute. These
panels have taken the infringement issue away from the
jury, under O2 Micro, by ruling that if any dispute remains
after an “plain and ordinary meaning” construction, it
must be resolved by the district court. See, e.g., NobelBiz,
Inc. v. Glob. Connect, L.L.C., 701 Fed. App’x. 994, 997-999
(Fed. Cir. 2017); Eon Corp. IP Holdings LLC v. Silver
Spring Networks, Inc., 815 F.3d 1314, 1319–20 (Fed. Cir.
2016) (finding that the district court erred by instructing
the jury that the terms “portable” and “mobile” should
be given their plain and ordinary meanings); Creative
Internet Advertising Corp. v. Yahoo!, Inc., 476 F. App’x
724, 728 (Fed. Cir. 2011) (the Federal Circuit held that the
district court erred in its failure to construe the disputed
term and reversed the verdict); see also Cobalt Boats, LLC
v. Brunswick Corp., 773 F. App’x 611, 615 (Fed. Cir. 2019);
Omega Patents, LLC v. CalAmp Corp., 920 F.3d 1337, 1346
(Fed. Cir. 2019) (the Federal Circuit held that the district
court erred by not construing the term “vehicle device”);
E.I. du Pont De Nemours & Company v. Unifrax I LLC,
921 F.3d 1060, 1083, 1083 n.5 (Fed. Cir. 2019) (dissent noted

11
“the O2 Micro trap” that district courts face); Kaneka
Corp v Xiamen Kingdomway Group 790 F.3d 1298 (Fed.
Cir. 2015) (district court erred by giving “sealed tank”
its ordinary meaning); Queens University at Kingston v
Samsung Elecs. Co., 2015 WL 2250384, at *1 (E.D. Tex.
May 13, 2015) (plain meaning).
At best, the Federal Circuit also struggles to
consistently apply O2 Micro. NobelBiz, Inc. v. Glob.
Connect, L.L.C. 876 F.3d 1326, 1328 (Fed. Cir. 2017)
(O’Malley, J., dissenting from denial of rehearing en
banc) (collecting cases); GPNE Corp. v. Apple Inc., 830
F.3d 1365, 1371–73 (Fed. Cir. 2016) (finding no O2 Micro
violation where the district court declined to construe the
term “pager,” and determining that the real dispute was
about allowing the defendant “to make certain arguments
to the jury”); Summit 6, LLC v. Samsung Elecs. Co.,
802 F.3d 1283, 1291 (Fed. Cir. 2015) (finding that the
district court did not err in declining to construe the
disputed term, which was itself “comprised of commonly
used terms; each is used in common parlance and has
no special meaning in the art”); ActiveVideo Networks,
Inc. v. Verizon Commc’ns, Inc., 694 F.3d 1312, 1326
(Fed. Cir. 2012) (finding that the district court did not
err under O2 Micro in concluding that “superimposing”
claim terms “have plain meanings that do not require
additional construction”); see also Union Carbide Chems.
& Plastics Tech. Corp. v. Shell Oil Co., 425 F.3d 1366, 1377
(Fed. Cir. 2005) (“Because the claim language does not
require a particular form of testing, this inquiry is not
a claim construction question, which this court reviews
de novo. Rather, this court reviews this inquiry as a
question of fact.”), overruled on other grounds by Cardiac
Pacemakers, Inc. v. St. Jude Med., Inc., 576 F.3d 1348
(Fed. Cir. 2009)).

12
In this case, the district court construed the term
“hollow drum” to have its “plain and ordinary meaning” as
used in the patent (specifically, “element h”). Infringement
turned on whether the accused “hollow drum” included a
drum endcap/hub as part of the drum. Solely because the
parties debated whether the accused product included the
claimed “hollow drum” (which included the endcap) before
the jury, the jury verdict was discarded by the Federal
Circuit applying O2 Micro.
The Federal Circuit panel sua sponte rewrote
the plain and ordinary meaning claim construction of
hollow drum in “element h” by injecting its own factual
finding regarding infringement (under the guise of claim
construction) by ruling that “the claimed hollow hub
is not a component of the claimed hollow drum.” App.
8a-11a. That is, the Federal Circuit believed that the
plain and ordinary meaning of drum excludes its endcaps
– essentially resolving as a factual matter as to whether
Respondent’s winch infringes the patent. 2
By injecting its own view of an ordinary term
(“hollow drum”), the appellate court usurped the factual
determination by the jury – using the “plain and ordinary
meaning” of element h – that Respondent’s design
infringes Petitioner’s patent. The factual application of
non-technical, readily understood claim terms is within
the province of the jury – not the circuit court. This is
particularly true when the Respondent did not object to
the claim construction.
2. The disputed “element h” is a phrase that simply
describes the interaction between the screw and hub/drum, with
infringement resolved by determining whether the accused Vortek
winch “hollow drum” included as a component its endcap/hub. App.
26a-37a, 48a-49a.

13
This Court’s Markman ruling made clear that while
claim construction is for the court, the jury determines
infringement. O2 Micro has improperly expanded claim
construction to authorize appellate resolution of common
terms, thereby invading the jury’s obligation to determine
the facts bearing on infringement. The decision below
violates the Seventh Amendment on two fronts and was
never sanctioned by Markman. Where a term is given its
ordinary meaning, applying this meaning is a question of
fact well within the ambit of the jury and fundamentally a
question of infringement for the jury. This was the careful
balance that Markman crafted, and it is improper for O2
Micro to remove such determinations from the jury.
C. O2 Micro’s Demand That the Court Determines
“Scope” of Ordinary Terms in the Patent Claim
Authorizes the Court to Resolve the Ultimate
Fact of Infringement in Violation of the Seventh
Amendment
Applying O2 Micro to vacate a jury infringement
finding premised on the existence of a factual dispute
regarding the scope of a plain and ordinary claim term
usurps the role of the jury and violates the Seventh
Amendment right to trial by jury, under both clauses of
the Seventh Amendment.
This Court in its Markman ruling made clear that
claim construction reserved to the court includes the
interpretation of the patent records, technical terms of art
or terms having specialized meanings. Markman, 517 U.S.
at 388-89. 3 This is consistent with the recognition of the
3. Specialized terms under Markman that require court
definition are illustrated by: “s10e5” – construed by the court to
be a term of art on a floating point format.

14
court’s role in interpreting legal documents.4 In contrast,
the Markman ruling is silent on court involvement in
determining the “scope” of the claim terms having
common ordinary meaning. Id.
A simple example illustrates where the jury applies its
understanding of a common ordinary term as part of the
jury role on infringement. Consider a patent claim that
requires a “circular opening.” This involves a term that
a jury can apply without explicit definition by the court.
Indeed, it is unclear how the court would rephrase such
a term for the jury.
If the accused product has an opening that deviates
from a perfect circle by a small amount, it is the jury’s role
to determine whether it is “circular” by applying its view
on whether the small deviation is enough to no longer be
circular. In contrast, if the patent itself defines the level
of deviation permitted to remain “circular” – the court
would so instruct the jury on this specialized definition.
Silicon Graphics, Inc. v. ATI Techs., Inc., 2007 WL 5614112,
at *11–12 (W.D. Wis. Oct. 15, 2007), aff’d in part, rev’d in part,
607 F.3d 784 (Fed. Cir. 2010); “dual lumen catheter” a term that
acquired specialized meaning in the PTO by excluding “side by
side” lumens. SciMed Life Systems v. Advanced Cardiovascular
Systems, Inc., 242 F.3d 1337, 1343-44 (Fed. Cir. 2001); and “about”
a term redefined by the specification to mean “exact.” Merck & Co,
Inc. v. Teva Pharmaceuticals USA, Inc., 395 F.3d 1364, 1370-71
(Fed. Cir. 2005).
4. See Markman, 517 U.S. 389: ”the claims of patents have
become highly technical in many respects as the result of special
doctrines relating to the proper form and scope of claims that have
been developed by the courts and the Patent Office.” Woodward,
Definiteness and Particularity in Patent Claims, 46 Mich. L. Rev.
755, 765 (1948).

15
Markman cannot justify the expanded role of the
court under O2 Micro’s ruling simply because a defendant
argues that its device is not infringing based on the plain
and ordinary meaning of the words of the patent (and the
plaintiff argues to the contrary). Under Markman, once
the court has determined that a common term used in the
claim has no special meaning in the context of the patent
or the underlying technology and should therefore be
construed in accordance with the ordinary meaning of the
words of the claim, the remaining infringement question
is squarely within the province of the jury.
Claim terms are construed by the court by defining
the outer boundaries of the invention. This “peripheral
claiming” approach may overlap with the ultimate jury
fact question on infringement – an inquiry directed to
whether an accused device falls within the claim language.
If the term is commonly understood, defining what it
excludes by the court risks an invasion of that jury role,
and usurps the infringement question under the guise of
claim construction.
The panel’s decision in this case defined “hollow
drum” by what it excluded – its endcap and hub – and
thus resolved infringement in a manner that clearly
undermined the fact-finding role of the jury. Following
a two-week trial, the district court judge referred the
question of infringement to the jury. The jury resolved
the parties’ factual disputes and determined infringement.
The infringement decision was confirmed by a separate
district court judge after a de novo review. 5 Nonetheless,
5. After Judge Robert W. Sweet passed away in March
2019, the case was reassigned to Judge George B. Daniels.

16
no deference was provided to any of the jury’s findings of
fact as to infringement – nor to the district court’s factfinding regarding claim constructions confirmed after
hearing extensive expert testimony.
The decision below emphasizes the critical need for
clarification so that courts can identify the circumstances
where a plain and ordinary meaning dispute is an “actual”
one within the meaning of O2 Micro. This case presents
the opportunity for this Court to clarify the confusion
created by O2 Micro and the havoc it has wreaked on jury
determinations.
The Federal Circuit’s O2 Micro requirement
additionally violates the Reexamination Clause of the
Seventh Amendment, prohibiting appellate courts
from reexamining any “fact tried by a jury”. O2 Micro
mandates such a reexamination of factual determinations
by a jury when a plain and ordinary meaning construction
has been tried. Cf. Google LLC v. Oracle Am., Inc., 141
S. Ct. 1183, 1200 (2021). Where the jury makes factual
determinations of infringement with a plain and ordinary
meaning construction, the Federal Circuit now mandates
review of the jury’s factual determinations to evaluate
whether such determinations were actually claim scope
disputes that were required to be resolved by the court.

Judge Daniels undertook a de novo review post-verdict – and,
after extensive briefing and a full-day hearing, issued a 35-page
Opinion, again rejecting each of Daktronics’ arguments. App.
17a-66a; see Olaf Soot Design, LLC v. Daktronics, Inc., 406 F.
Supp. 3d 328, 334 (S.D.N.Y. 2019).

17
D. Neither Markman Nor O2 Micro Justify Reversal a
Jury Verdict by Sua Sponte Introduction of a New
Claim Construction That was Not Raised at Trial
or on Appeal
The panel’s application of O2 Micro has further elevated
a “plain and ordinary meaning” claim construction into a
per se appealable issue even if neither party challenged on
appeal the district court constructions given to the jury at
trial. 6 The lack of any claim construction issue on appeal
was clearly acknowledged by Respondent:
Chief Judge Prost: “We have an old case called
O2 Micro … plain and ordinary meaning wasn’t
good enough where the heart of the dispute
came down to claim construction and the claim
construction should have been done. Did you
ever, you knew this was part of the dispute
in the case, did you ever seek a specific claim
construction on plain and ordinary meaning?”
Respondent’s Counsel: “No Your Honor, we
saw plain and ordinary meaning. We think
this claim was very clear and it requires both a
hollow hub and a hollow drum. Both of them to
be sized, such that the hollow drum can receive
the screw. That doesn’t seem like anything
that requires any construction, your Honors.
6. At no point during the trial below or on appeal
did Respondent raise any dispute as to the construction of
“element h” or the related “hollow drum” term – relying solely
on its arguments using the “plain and ordinary meaning”
construction it had earlier proposed to the district court, that
were accepted. See App. 73a-74a, 80a.

18
I think the way that OSD is construing and as
well as the district court just makes no sense in
context.” Oral Arg. 2:50-3:39. (emphasis added).
…
Chief Judge Prost: “Is it de novo review
because it’s vitiation or because you think it’s
a claim construction dispute?”
Respondent’s Counsel: “It’s a legal issue, Your
Honor. Vitiation … It’s not a claim construction
issue. It’s plain and ordinary meaning.”
Oral Arg. 4:34-4:45. (emphasis added).
Here, the district court at Markman hearing found
in Respondent’s favor by adopting the plain and ordinary
meaning of the “element h” and “hollow drum” claim terms.
The fact that after trial Respondent became dissatisfied
with the application of its own proposed construction by
the jury should not authorize sua sponte review under O2
Micro. Nuance Commc’ns, Inc. v. ABBYY USA Software
House, Inc., 813 F.3d 1368 (Fed. Cir. 2016); Akamai Techs.,
Inc. v. Limelight Networks, Inc., 805 F.3d 1368, 1376 (Fed.
Cir. 2015).
This carries more weight here as neither party raised
O2 Micro on appeal. As the Federal Circuit stated in Core
Wireless:
It appears that a claim scope dispute went
unresolved during the course of trial, which
resulted in the experts presenting competing

19
theories of claim construction to the jury.
… This court has made clear that “[w]hen
the parties present a fundamental dispute
regarding the scope of a claim term, it is the
court’s duty to resolve it.” O2 Micro Int’l Ltd.
v. Beyond Innovation Tech. Co., 521 F.3d 1351,
1362 (Fed. Cir. 2008). Neither party raised this
issue on appeal, however, so we do not address
it further.
Core Wireless Licensing S.A.R.L. v. Apple Inc., 899 F.3d
1356, 1363 n.1 (Fed. Cir. 2018).
Reliance on O2 Micro should not justify sua sponte
rejection of the district court’s “plain and ordinary
meaning” claim construction. Hormel v. Helvering, 312
U.S. 552, 556 (1941) (rule prohibiting considering on appeal
argument not raised to the district court ensures that
“parties may have the opportunity to offer all the evidence
they believe relevant to the issues … [and] in order that
litigants may not be surprised on appeal by final decision
there of issues upon which they have had no opportunity
to introduce evidence”).
The panel’s application of O2 Micro authorizes
appellate review to address a plain and ordinary meaning
claim construction not raised by Respondent below or on
appeal. For the benefit of litigants and courts today and in
the future, the circumstances where sua sponte injection
of a claim construction issue that was never appealed is
allowable should be clarified by this Court.7
7. T he Pa nel m i st a ken ly c red it s Re sp ondent w it h
“contend[ing] that the hub and drum are separate” as part of

20
THIS COURT’S REVIEW OF O2 MICRO IS
WARRANTED NOW
A. Guidance on the Proper Limits of O2 Micro are
Necessary
As shown above, this Court’s guidance is necessary to
delineate the procedural and substantive bounds of the O2
Micro decision. O2 Micro allows for the Federal Circuit to
turn factual determinations by a jury under proper plain
and ordinary meaning constructions, into purported claim
scope determinations for mandatory de novo review by
appellate courts. Such a mandate by the appellate court
violates the Seventh Amendment requirements for a jury
trial and allows for improper reexamination of factual
determinations into an effort to resolve “actual” disputes
as to claim meanings, after the fact.
Deference shou ld be g iven t o t hese fa ctua l
determinations, regardless of whether an appellate
court would view the evidence in a different way. See,
e.g., Lavender v. Kurn, 327 U.S. 645, 653 (1946) (“[T]
he appellate court’s function is exhausted when that
evidentiary basis [for the jury’s verdict] becomes
the Markman process. App. 7a-8a. There is no support for this
conclusion and the record is clear that Respondent insisted that
“no construction was necessary” for this element – and the district
court explicitly adopted this approach – providing a plain and
ordinary meaning construction. See App. 73a-74a, 80a; Olaf Sööt
Design, LLC v. Daktronics, Inc., 220 F. Supp. 3d 458, 467–68
(S.D.N.Y. 2016). This was not a case of the district court “fail[ing]
to resolve the parties’ dispute as to the meaning of the claim” –
this was Respondent receiving its requested plain and ordinary
meaning construction. App. 73-77a, 80a; see App. 7a-8a.

21
apparent, it being immaterial that the court might draw a
contrary inference or feel that another conclusion is more
reasonable.”); Anderson v. City of Bessemer City, 470
U.S. 564, 573-74 (1985) (“If the district court’s account of
the evidence is plausible in light of the record viewed in
its entirety, the court of appeals may not reverse it even
though convinced that had it been sitting as the trier of
fact, it would have weighed the evidence differently.”).
O2 Micro’s mandate to resolve any “actual” dispute
as to the scope of ordinary claim terms, at any stage of
litigation including for the first time on appeal, should be
scrutinized.
B. This Case is an Ideal Vehicle for Tackling the O2
Micro Issue
This case demonstrates the potential overbreadth
of O2 Micro. The element at issue was construed by
the district court to have the construction proposed by
Respondent. At no point in the litigation did Respondent
request any further guidance from the court regarding the
construction of “element h” or “hollow drum”. Respondent
likewise did not object to the constructions presented to
the jury. On appeal, Respondent framed the issue as one
of vitiation, a factual question regarding the doctrine of
equivalents, and confirmed during oral argument that
Respondent did not see this as a claim construction issue.
On appeal, however, the Federal Circuit has used
the reach of O2 Micro to completely upend a jury’s
factual determination of infringement on the basis that
a dispute between the parties was actually one of claim
“scope.” Here, reexamination of factual determinations

22
made by the jury pursuant to the agreed constructions
and disputed evidence was precluded by the Seventh
Amendment.
CONCLUSION
For the reasons stated above, the Petition should be
granted.
		

Respectfully submitted,
James M. Bollinger
Counsel of Record
Magnus Essunger
K atherine Harihar
Gerald E. Porter
Troutman Pepper Hamilton Sanders LLP
875 Third Avenue
New York, NY 10022
(212) 704-6000
james.bollinger@troutman.com
Christopher Browning
Troutman Pepper Hamilton Sanders LLP
305 Church Street, Suite 1200
Raleigh, NC 27609
chris.browning@troutman.com
Counsel for Petitioner

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals for the
federal circuit, filed january 7, 2021
United States Court of Appeals
for the Federal Circuit
2020-1009, 2020-1034
OLAF SOOT DESIGN, LLC,
Plaintiff-Cross-Appellant,
v.
DAKTRONICS, INC.,
Defendant-Appellant.
Appeals from the United States District Court for
the Southern District of New York in No. 1:15-cv-05024GBD-OTW, Judge George B. Daniels.
January 7, 2021, Decided
Before Prost, Chief Judge, Lourie and Reyna, Circuit
Judges.
Opinion for the court filed by Chief Judge Prost,
in which Lourie and Reyna, Circuit Judges, join.
Additional views filed by Circuit Judge Lourie.

2a
Appendix A
Prost, Chief Judge.
Olaf Sööt Design, LLC (“OSD”) sued Daktronics,
Inc. (“Daktronics”), alleging that Daktronics’s Vortek
product infringes claim 27 of U.S. Patent No. 6,520,485
(“the ’485 patent”). Four of the eight elements of claim
27—elements b, d, e, and h—were tried to a jury, which
ultimately found that the Vortek product met each of
these elements under the doctrine of equivalents. After
the jury verdict, Daktronics moved for judgment as a
matter of law (“JMOL”) of noninfringement. Daktronics
argued that the Vortek product did not meet element h
either literally or under the doctrine of equivalents. The
district court denied this motion. See Olaf Sööt Design,
LLC v. Daktronics, Inc., 406 F. Supp. 3d 328, 338 (S.D.N.Y.
2019) (“Decision Denying JMOL”). Daktronics appealed
the final judgment of infringement and several additional
rulings. OSD cross-appealed the district court’s judgment
of no willful infringement and denial of OSD’s motion for
an exceptional-case determination and attorneys’ fees. We
have jurisdiction under 28 U.S.C. § 1295(a)(1).
We reverse the final judgment of infringement,
mooting the remainder of Daktronics’s appeal and OSD’s
cross-appeal.
Background
I
The ’485 patent discloses a theater winch for moving
scenery and lighting by winding and unwinding cables,

3a
Appendix A
which are attached to the scenery, around a drum.
’485 patent col. 3 ll. 41-51. An embodiment of the winch
described by the ’485 patent is shown below. The winch is a
“zero fleet angle winch,” which means that the cables wind
and unwind together without tangling and are maintained
perpendicular to the drum. Id. at col. 4 ll. 14-29. the
winch achieves zero fleet angle via movement of cable
drum 11 laterally along carriage 40 as cable drum 11 ro-

tates, permitting cables 50 to wind and unwind uniformly
and preventing the cables from winding on themselves.
Id. at col. 4, ll. 14-29.
More specifically, “nut 53 is non-rotatably mounted
to the drum assembly 10 brake end cap 14 elongated
hub.” Id. at col. 4 ll. 38-40. a motor rotates drum 11 and
the mounted nut around fi xed screw 51, which causes the
nut to engage with and rotate around fi xed screw 51. Id.

4a
Appendix A
at col. 4, ll. 30-60. Such engagement causes the nut and
drum 11 to move laterally along carriage 40. Id. at col. 4,
ll. 30-60. As drum 11, the elongated hub, and the nut move
laterally, “the screw 51 can pass, via the hollow hub, inside
the drum 11, which is also hollow.” ’485 patent col. 4 ll. 4041. Advantages of this setup include that “the screw 51
is protected” inside drum 11 and that the “overall length
(its long dimension) of the winch 1” is reduced. Id. at col.
4, ll. 41-42, 47-49.
Claim 27—the only claim at issue on appeal—
recites:
27. A motorized fly system winch, drum and
carriage combination for raising and lowering
an object, comprising:
a) a carriage,
b) a base member having first and second end
portions,
c) an elongated hollow drum having cable
grooves and having a longitudinal axis and
rotatably mounted on the base member and a
cable for simultaneously winding and unwinding
the cable on or off the drum grooves when the
drum is rotated, said cable passing from the
outside of the drum directly or via a sheave to
the object such that rotation of the drum causes
the object to move up and down,

5a
Appendix A
d) first means for slideably mounting the base
member to the carriage,
e) said drum having at a first end a hollow hub
rotatably journalled at the first end portion of
the base member,
f) second means for rotating the drum relative
to the base member such that the base member
with its drum and the carriage can move with
respect to each other in synchronism with the
rotation of the drum to control the cable run
to the object,
g) said second means comprising an elongated
screw having a first end non-rotatably mounted
to the carriage and a second end connected to
the drum and axially aligned with the hollow
hub and the hollow drum, said screw extending
mainly outside of the hollow drum when the
cable is wound up on or unwound from the drum
and the object is in its respective up or down
position,
h) said hollow hub and hollow drum being sized
such that the screw can move into the hollow
hub to allow the hollow drum to receive the
screw as the cable unwinds from or winds up
on the drum as the object moves to its respective
down or up position.
(emphasis added).

6a
Appendix A
ii
the relevant portion of daktronics’s Vortek product
is depicted below. As shown, see Cross-appellant’s Br. 16,
the internal passage for the screw ends within the hub,
approximately two inches from the inside of the wider
grooved drum member that receives and engages with
the cables.

discussion
We conclude that the Vortek product does not infringe
claim 27 of the ’485 patent as a matter of law and thus
reverse the fi nal judgment of infringement. This holding
moots the remainder of daktronics’s appeal and oSd’s
cross-appeal.
i
in O2 Micro International Ltd. v. Beyond Innovation
Technology Co., we explained that “[w]hen the parties
present a fundamental dispute regarding the scope of a

7a
Appendix A
claim term, it is the court’s duty to resolve it.” 521 F.3d
1351, 1362 (Fed. Cir. 2008). Otherwise, a legal question
will be “improperly submitted to the jury.” Id.
Here, the district court failed to resolve a fundamental
dispute regarding the scope of claim element h—
specifically, whether the hub is part of the drum.
OSD argued in its claim construction briefing that
“the hub is a part of the drum.” J.A. 415. Because it is
undisputed that the Vortek hub is able to receive the
screw, under OSD’s interpretation of element h that the
hub is part of the drum, it would necessarily follow that
the Vortek drum would be able to receive the screw, as
element h requires.
Daktronics, on the other hand, contended that the hub
and drum are separate and that OSD was attempting to
“drop[] the [claim] requirement that the drum receives the
screw.” J.A. 836. Because it is undisputed that the Vortek
screw is received by the hub and not the wider grooved
drum member that receives the cables, under Daktronics’s
interpretation of element h that the hub is not part of the
drum, the Vortek drum would not receive the screw, as
element h requires.
In its Markman order, the court stated that “[n]o
construction of [element h] is necessary” and failed to
resolve the parties’ dispute as to the meaning of the claim.
Olaf Sööt Design, LLC v. Daktronics, Inc., 220 F. Supp. 3d
458, 467-68 (S.D.N.Y. 2016). The court did not otherwise
resolve this claim construction dispute prior to the jury
trial. This failure violates O2 Micro.

8a
Appendix A
The district court belatedly resolved the claim
construction dispute in its post-jury-verdict decision
denying JMOL of noninfringement. Specifically, the
district court concluded that the hub is part of the drum
and, on that basis, rejected Daktronics’s argument that
the Vortek product does not infringe as a matter of law
because the Vortek drum does not receive the screw.
Decision Denying JMOL, 406 F. Supp. 3d. at 340-41. The
district court explained that “the jury relied on ample
evidence that the hollow drum and the hollow hub are
not separate entities for purposes of receiving the screw.”
Id. at 342. That claim construction dispute was for the
judge to decide, not the jury. The district court’s failure
to resolve this material claim construction dispute prior
to trial resulted in a claim construction dispute being
“improperly submitted to the jury.” O2 Micro, 521 F.3d
at 1362.
II
In O2 Micro, “[b]ecause we determine[d] that the
district court [was] in the best position to determine the
proper construction of the claim in the first instance,” we
did not resolve the claim construction dispute in the first
instance and instead remanded for further proceedings.
Id. at 1362-63, 1366. Here, however, because we have the
benefit of the district court’s belated claim construction,
and because the parties have briefed the dispute, no
remand is necessary. We agree with Daktronics that,
with respect to claim 27, the claimed hollow hub is not a
component of the claimed hollow drum.

9a
Appendix A
“The proper construction of a patent’s claims is an
issue of Federal Circuit law.” Powell v. Home Depot
U.S.A., Inc., 663 F.3d 1221, 1228 (Fed. Cir. 2011). “The
construction of claim terms based on the claim language,
the specification, and the prosecution history are legal
determinations.” Trs. of Columbia Univ. v. Symantec
Corp., 811 F.3d 1359, 1362 (Fed. Cir. 2016) (citing Teva
Pharms. USA, Inc. v. Sandoz, Inc., 574 U.S. 318, 328, 135
S. Ct. 831, 190 L. Ed. 2d 719 (2015)).
Claim terms “are generally given their ordinary and
customary meaning,” which “is the meaning that the
term would have to a person of ordinary skill in the art
in question at the time of the invention.” Phillips v. AWH
Corp., 415 F.3d 1303, 1312-13 (Fed. Cir. 2005) (en banc).
“[T]he claims themselves provide substantial guidance
as to the meaning of particular claim terms.” Id. at 1314.
“[T]he person of ordinary skill in the art is deemed to read
the claim term not only in the context of the particular
claim in which the disputed term appears, but in the
context of the entire patent, including the specification.”
Id. at 1313. Although claim terms are interpreted in the
context of the entire patent, it is improper to “read[]
limitations from the specification into the claim.” Id.
at 1323. “[T]he line between construing terms and
importing limitations can be discerned with reasonable
certainty and predictability if the court’s focus remains
on understanding how a person of ordinary skill in the
art would understand the claim terms.” Id.
Element h of claim 27 recites, in relevant part, that
the “hollow hub and hollow drum [are] sized such that the

10a
Appendix A
screw can move into the hollow hub to allow the hollow
drum to receive the screw.” This language makes clear
that the hollow hub is not part of the hollow drum. The claim
language treats the hub and drum as two components,
reciting that both “the hollow hub and hollow drum” are
sized to receive the screw. Furthermore, it would make
no sense for the hollow hub to be part of the hollow drum
given that the claim says that the screw moves into the
hollow hub “to allow the hollow drum to receive the screw.”
That language indicates that the screw’s entry into one
component, the hollow hub, facilitates entry of the screw
into another component, the hollow drum, not that entry
into the hollow hub is entry into the hollow drum. In sum,
the clearest reading of the claim language is that the
hollow hub is not a component of the drum.
The specification confirms this conclusion. In
particular, the specification explains that the “hub is
hollow so that the screw 51 can pass, via the hollow hub,
inside the drum 11, which is also hollow.” ’485 patent col. 4
ll. 39-41. This passage confirms that the screw enters the
drum via passage through another component, the hollow
hub. And, after explaining that the hub is hollow, the
passage continues treating the hub and drum as separate
components by disclosing that the drum is “also” hollow.
OSD contends that the hub is part of the drum. In
support, OSD argues that element e of claim 27—which
recites “said drum having at a first end a hollow hub”—
confirms that the hub is a component of the drum. We
disagree. Element e merely specifies that the hollow hub
is positioned at one of the ends of the drum.

11a
Appendix A
OSD also points to the specification’s explanation
that “the grooved cable drum 11 can be constructed of
one tubular member 12, one drive end cap 13 and one
brake end cap 14, all welded together,” id. at col. 5 ll. 7-9,
and that the hub is “part of the cable drum 11 brake end
cap 14,” id. at col. 3 ll. 59-61. However, this language is
permissive, not mandatory: at most, this passage explains
that the hub can be part of the drum, not that the hub is
part of the drum. And the specification passage discussed
previously contemplates embodiments in which the hub is
not considered part of the drum. See id. at col. 4 ll. 39-41.
For these reasons, and because claim 27 indicates that
the hub is not part of the drum, we are not persuaded by
OSD’s reliance on this passage of the specification.1
Accordingly, we conclude that, for purposes of claim
27, the hub is not part of the drum.
III
Under the proper construction, the Vortek product
does not infringe claim 27 either literally or under the
doctrine of equivalents. The Vortek product does not
literally meet element h of claim 27 because the hollow
drum of the Vortek is not able to receive the screw.
In addition, we conclude as a matter of law that the
Vortek product does not meet element h under the doctrine
of equivalents. The Vortek drum is unable to receive the
1. We note that “[i]t is not necessary that each claim read on
every embodiment.” Baran v. Med. Device Techs., Inc., 616 F.3d
1309, 1316 (Fed. Cir. 2010).

12a
Appendix A
screw, and the Vortek product has no equivalent function.
Thus, a finding of infringement under the doctrine of
equivalents would be inappropriate under these specific
circumstances because such a finding would impermissibly
eliminate the requirement that the hollow drum be able
to receive the screw as the cable winds or unwinds on
the drum. See, e.g., Warner-Jenkinson Co. v. Hilton
Davis Chem. Co., 520 U.S. 17, 29, 117 S. Ct. 1040, 137
L. Ed. 2d 146 (1997) (“[T]he application of the doctrine
[of equivalents], even as to an individual element, is not
allowed such broad play as to effectively eliminate that
element in its entirety.”); Power Integrations, Inc. v.
Fairchild Semiconductor Int’l, Inc., 843 F.3d 1315, 134445 (Fed. Cir. 2016) (rejecting a theory of infringement
under the doctrine of equivalents that would vitiate a
claim limitation by rendering it meaningless); Freedman
Seating Co. v. Am. Seating Co., 420 F.3d 1350, 1358 (Fed.
Cir. 2005) (concluding that “an element of an accused
product or process is not, as a matter of law, equivalent
to a limitation of the claimed invention if such a finding
would entirely vitiate the limitation”); Pf﻿izer, Inc. v. Teva
Pharms., USA, Inc., 429 F.3d 1364, 1379 (Fed. Cir. 2005)
(“The all limitations rule ‘provides that the doctrine of
equivalents does not apply if applying the doctrine would
vitiate an entire claim limitation.’” (quoting Asyst Techs.,
Inc. v. Emtrak, Inc., 402 F.3d 1188, 1195 (Fed. Cir. 2005))).

13a
Appendix A
Conclusion
We have considered OSD’s remaining arguments but
find them unpersuasive. For the foregoing reasons, we
conclude that the Vortek product does not infringe claim
27 of the ’485 patent, and we therefore reverse the final
judgment of infringement. In view of this conclusion, we
dismiss the remainder of Daktronics’s appeal and the
entirety of OSD’s cross-appeal as moot.
REVERSED-IN-PART AND DISMISSED-IN-PART

14a
Appendix A
Lourie, Circuit Judge, additional views.
I concur in the panel’s decision and fully agree with
its reasoning as set forth in Chief Judge Prost’s opinion.
I write these separate comments to express concern over
the use of the doctrine of equivalents to find infringement
when four claim limitations have not literally been met by
the accused device.
Infringement under our law is basically determined
by whether the accused device, or process, or compound,
meets the claims of the patent. That is literal infringement,
the usual situation in patent litigation. We do have a
doctrine of equivalents, which is clearly part of our law.
Graver Tank & Mfg. Co. v. Linde Air Prods. Co., 339 U.S.
605, 70 S. Ct. 854, 94 L. Ed. 1097, 1950 Dec. Comm’r Pat.
597 (1950); Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. 722, 122 S. Ct. 1831, 152 L. Ed. 2d
944 (2002); Eli Lilly & Co. v. Hospira, Inc., 933 F.3d 1320
(Fed. Cir. 2019). But almost always when an equivalence
issue arises, it is with respect to one, or perhaps two,
claim limitations.
Equivalence requires meeting the function-wayresult test, or the insubstantial differences test, or both.
See Warner-Jenkinson Co. v. Hilton Davis Chem. Co.,
520 U.S. 17, 40, 117 S. Ct. 1040, 137 L. Ed. 2d 146 (1997)
(“Different linguistic frameworks may be more suitable to
different cases, depending on their particular facts.”). But
the Supreme Court has cautioned that the application of
these tests requires “a special vigilance against allowing
the concept of equivalence to eliminate completely any
such elements” that are not literally met. Id. In short, in
applying the doctrine of equivalents, judges and juries
must use common sense.

15a
Appendix A
I have previously noted that in the pharmaceutical
industry it is quite possible that two compounds might
satisfy the function-way-result test even though they are
not equivalent on a structural, or identity, basis. See Mylan
Institutional LLC v. Aurobindo Pharma Ltd., 857 F.3d
858, 869 (Fed. Cir. 2017) (noting that the substantially
different compounds aspirin and ibuprofen could be
considered to have the same function, way, and result). In
such a case, the law should not be so rigid as to restrain a
factfinder from recognizing the clear lack of equivalence.
Similarly, common sense must be applied to the
insubstantial differences test. Having multiple differences
from the claim should be a hallmark of noninfringement.
It fails the straight face test to assert that the accused
subject matter does not meet the claims in multiple distinct
ways, but infringes anyway.
Here, we have four claim limitations that are not met
literally. I have found no case in which we have affirmed a
finding of infringement under the doctrine of equivalents
when four separate claim limitations are not met literally.
That would be equivalent (no pun intended) to holding that
the accused product infringes when it does not infringe.
We have a concept in patent law of “inventing around,”
and that is considered socially desirable for the promotion
of competition and the benefit of consumers. See, e.g.,
Westvaco Corp. v. Int’l Paper Co., 991 F.2d 735, 745 (Fed.
Cir. 1993); State Indus., Inc. v. A.O. Smith Corp., 751
F.2d 1226, 1235-36 (Fed. Cir. 1985). To find that multiple
significant instances of inventing around still infringe
runs counter to that important theory of patent law. Such
a conclusion, whether by a jury, as here, or by a judge,
makes a mockery of claims.

16a
Appendix A
Moreover, shockingly, the patent owner in this case
cross appeals on the issue of willful infringement and
relies on supposed evidence that the accused infringer
allegedly copied the patent owner’s product. To argue
willfulness in making or selling a device that fails in four
separate respects to literally meet the claims would almost
qualify for a chutzpah award. See Dainippon Screen Mfg.
Co. v. CFMT, Inc., 142 F.3d 1266, 1271 (Fed. Cir. 1998);
Refac Int’l, Ltd. v. Lotus Dev. Corp., 81 F.3d 1576, 1584
(Fed. Cir. 1996); Checkpoint Sys., Inc. v. United States
Int’l Trade Comm’n, 54 F.3d 756, 763 n.7 (Fed. Cir. 1995)
(noting that “chutzpah” describes “the behavior of a
person who kills his parents and pleads for the court’s
mercy on the ground of being an orphan”). The only acts
that seem willful were avoiding the patented device.
We have here found deficiencies in the district court’s
analysis of element (h) of the asserted claim, but I write
only to call attention to the danger in the orderly thinking
about infringement determinations, by business people,
by attorneys, or by courts, in extending equivalence to
multiple claim limitations, which has the potential of
destroying the primacy of claims. Yes, we have a doctrine
of equivalents, but “it is the exception . . . not the rule, for
if the public comes to believe (or fear) that the language
of patent claims can never be relied on, and that the
doctrine of equivalents is simply the second prong of
every infringement charge, regularly available to extend
protection beyond the scope of the claims, then claims will
cease to serve their intended purpose.” Wallace London
& Clemco Prods. v. Carson Pirie Scott & Co., 946 F.2d
1534, 1538 (Fed. Cir. 1991).

17a
Appendix B
Appendix B — memorandum
decision and
order of the united states district
court for the southern district
of new york, filed august 27, 2019
United States District Court
Southern District of New York
15 Civ. 5024 (GBD)
OLAF SÖÖT DESIGN, LLC,
Plaintiff,
-againstDAKTRONICS, INC.
and DAKTRONICS HOIST INC.,
Defendants.
August 27, 2019, Decided
August 27, 2019, Filed
MEMORANDUM DECISION AND ORDER
GEORGE B. DANIELS, United States District Judge:
Plaintiff Olaf Sööt Design, LLC (“OST”) brought this
action against Defendants Daktronics, Inc. and Daktronics
Hoist Inc. for infringement of U.S. Patent No. 6,520,485
(the “’485 Patent”) under the Patent Act, 35 U.S.C. § 271.
(Am. Compl., ECF No. 190; Decl. of Kenneth L. Bressler
in Supp. of Defs.’ Mot. for Summ. J. of Non-Infringement

18a
Appendix B
(“Bressler Decl.”), Ex. 1 (The ’485 Patent), ECF No. 351.) The ’485 Patent is for a stage scenery winch system
that helps to move large sets quickly and efficiently. (the
“’485 Patent Winch”). (Id.) From December 10 to 18, 2018,
Judge Robert W. Sweet presided over a jury trial in this
action that resulted in a judgment against Defendants in
the sum of $1,702,800.00. (J., ECF No. 327.)
Before this Court are five post-trial motions.
Defendants filed a renewed motion for judgment as a
matter of law under Federal Rule of Civil Procedure 50(b)
and a motion for a new trial under Federal Rule of Civil
Procedure 59(a). (ECF Nos. 329, 346). Plaintiff filed a
motion for judgment as a matter of law under Federal Rule
of Civil Procedure 50(b), a motion to amend the judgment
under Federal Rule of Civil Procedure 59(e), and a motion
for attorney’s fees under the Patent Act, 35 U.S.C § 285.
(ECF Nos. 342, 338, 353.)
Defendants’ motions for judgment as a matter of law
and for a new trial are DENIED. Plaintiff’s motions for
judgment as a matter of law and for attorney’s fees are
DENIED. Plaintiffs motion to amend the judgment is
GRANTED.
I. FACTUAL & PROCEDURAL HISTORY
On February 18, 2003, U.S. Patent Application No.
09/690,116 matured into the ’485 Patent and was assigned
to Plaintiff. (Bressler Decl., Ex. 1 (The ’485 Patent).) The
’485 Patent’s Abstract provides a brief description of the
’485 Patent Winch as follows:

19a
Appendix B
A motorized f ly system winch, drum and
carriage combination for raising and lowering,
for example, theatre scenery by means of cables
and which incorporates functions for emergency
braking, for moving the drum in synchronization
with relation to the carriage containing cableguiding means and for driving of a limit switch
if desired. The winding and unwinding the
cables on or off the drum does not change the
cable runs relative to the theatre. The fly system
winch can be installed at the sides of the stage,
up at the stage gridiron, or above the gridiron.
With this combination, counter-weights are
unnecessary. The fly system winch is compact
and can be economically manufactured.
(Id. at 57.) Defendants designed and built winches known
as VORTEK Classic Hoists (the “Vortek”) that are used
by professional theaters, school auditoriums, places of
worship, and other performance spaces. (Compl., ECF
No. 1, ¶¶ 13-14.)
Plaintiff commenced the instant action against
Defendants for patent infringement on June 26, 2015.
(Id. at 5.) Plaintiff alleged that Defendants engaged in
the “manufacture, use, offer for sale, sale, importation,
promotion, and/or demonstration of winches [covered
by one or more of the ’485 Patent claims] including
manufacture, marketing and/or sales in New York.” (Id.
¶ 12.)

20a
Appendix B
Defendants moved for summary judgment on April
29, 2016. (Defs.’ Notice of Mot. & Mot. for Summ. J. of
Non-Infringement, ECF No. 32.) On May 9, 2016, Plaintiff
moved for claim construction on twelve terms appearing
in the ’485 Patent. (Pl.’s Opening Claim Constr. Br., ECF
No. 44.) Judge Sweet ruled on both motions on October
26, 2016, denying summary judgment and construing
the disputed terms in the ’485 Patent. (Op. dated Oct. 26,
2016 (“Claim Constr. Op.”), ECF No. 72.) Judge Sweet
also denied Defendants’ motion to reconsider his denial of
summary judgment on May 17, 2017. (Op. dated May 17,
2017 (“Recons. of Summ. J. Op.”), ECF No. 137.)
On October 26, 2017, Judge Sweet granted Plaintiff’s
motion to amend the complaint to include a claim of willful
infringement under the Patent Act, 35 U.S.C § 271.
(Op. dated Oct. 26, 2017, ECF No. 176.) Plaintiff filed an
amended complaint on November 7, 2017. (Am. Compl.)
Subsequently, Defendants moved for partial summary
judgment to establish that they did not willfully infringe
the ’485 Patent. (Defs.’ Mot. for Partial Summ. J. of No
Willful Infringement, ECF No. 200.) Judge Sweet granted
Defendants’ motion for partial summary judgment on July
18, 2018 and denied Plaintiff’s motion to reconsider on
November 27, 2018. (J. re Part. Summ. J., ECF No. 258;
Op. dated Nov. 27, 2018, ECF No. 292.)
On December 6, 2018, Judge Sweet granted in part
and denied in part the parties’ motions in limine.1 (Op.
1. Defendants’ filed five motions in limine requesting that
Judge Sweet preclude Plaintiff from (1) “arguing and presenting
evidence on literal infringement”; (2) “referring to the Vortek

21a
Appendix B
re Mots. In Limine, ECF No. 304.) Judge Sweet presided
over an eight-day jury trial from December 10 to 18, 2018.
(Trial Tr., ECF Nos. 315-326.) The jury returned a verdict
in Plaintiff’s favor and granted damages in the amount of
$1,072,800. (Trial Tr. at 840:13-841:25.) The parties filed
post-trial motions between January 7 and March 13, 2019.
(Defs.’ Notice of Renewed Mot. for J. as a Matter of Law
(“Defs.’ JMOL Mot”), ECF No. 329; Daktronics’ Notice
of Mot. for New Trial, or Alt., Remittitur (“Defs.’ Mot.
for New Trial Mot”), ECF No. 346; Pl.’s Notice of Mot. to
Amend the J. (“Pl.’s Mot. to Amend J.”), ECF No. 338; Pl.’s
Renewed Mot. Pursuant to FRCP 50(b) for J. as a Matter
of Law (“Pl.’s JMOL Mot.”), ECF No. 342; Pl.’s Mot. for
Attorneys’ Fees Pursuant to 35 U.S.C. § 285 (“Pl.’s Mot.
for Attorney’s Fees”), ECF No. 353.)
motor bracket as a ‘base member”; (3) “speculating that Defendants
. . . copied the ’485 patent”; (4) “stating or implying that Defendant
withheld discovery or produced documents in an untimely manner”;
and (5) “presenting evidence or arguing concerning the inter partes
review and Daktronics’ withdrawal of its invalidity defense.” (Op. re
Mots. In Limine at 1; Defs.’ Mots. In Limine, ECF No. 158.) Judge
Sweet granted Defendants’ motions in limine (1), (2), (4), and (5) in
full, and motion (3) in part. (Op. re Mots. In Limine at 6-11.)
Plaintiff filed two motions in limine requesting Judge Sweet to
(1) “[e]xclude prior art references and related testimony suggesting
or related to the purported invalidity of the ’485 patent”; and (2)
“[e]xclude Defendant from presenting, relying on, or referring to the
settlement agreement entered into between Applied Technology and
J.R. Clancy, Inc.” (Op. re Mots. In Limine at 2; Pl.’s Consol. Mots.
In Limine, ECF No. 159.) Judge Sweet granted Plaintiff’s motion
in limine (1) in full and denied motion (2) in full. (Op. re Mots. In
Limine at 12-16.)

22a
Appendix B
This case was reassigned to this Court on April 30,
2019 after Judge Sweet’s passing. On July 9, 2019, this
Court heard oral arguments on the parties’ motions for
judgment as a matter of law and on Defendants’ motion
for a new trial.
II. LEGAL STANDARDS
A. 	Rules 50(a) and (b) Motions for Judgment as a
Matter of Law.
Federal Rule of Civil Procedure 50(a) permits a court
to enter judgment against a party “[i]f a party has been
fully heard on an issue during a jury trial and the court
finds that a reasonable jury would not have a legally
sufficient evidentiary basis to find for the party on that
issue. . . .” Fed. R. Civ. P. 50(a)(1). Pursuant to Federal
Rule of Civil Procedure 50(b), a party may renew a motion
for judgment as a matter of law “[n]o later than 28 days
after the entry of judgment.” Fed. R. Civ. P. 50(b). When
deciding a Rule 50(b) motion, a court may “(1) allow
judgment on the verdict, if the jury returned a verdict;
(2) order a new trial; or (3) direct the entry of judgment
as a matter of law.” Id.
However, a Rule 50(b) post-trial motion for judgment
as a matter of law “is limited to those grounds that
are specifically raised in the prior motion for [JMOL].”
Galdieri-Ambrosini v. Nat’l Realty & Dev. Corp., 136 F.3d
276, 286 (2d Cir. 1998) (quoting Samuels v. Air Transport
Local 504, 992 F.2d 12, 14 (2d Cir. 1993) (internal quotation
marks omitted)); see also AIG Global Sec. Lending Corp.

23a
Appendix B
v. Banc of Am. Sec., LLC, 386 Fed. Appx. 5, 6 (2d Cir. 2010)
(finding that a Rule 50 motion “may be renewed after
an unfavorable verdict, but limited only to the grounds
specifically raised in the prior motion for judgment as a
matter of law; new grounds may not be added post-trial”).
Therefore, when evaluating a Rule 50(b) motion,
courts review “the evidence in the light most favorable
to the non-moving party.” Rosioreanu v. City of N.Y., 526
F. App’x 118, 119 (2d Cir. 2013). Further, when reviewing
the evidence, a court may not “weigh evidence, assess
credibility, or substitute its opinion of the facts for that
of the jury.” Advance Pharm., Inc. v. United States, 391
F.3d 377, 390 (2d Cir. 2004) (citing Vt. Plastics, Inc. v.
Brine, Inc., 79 F.3d 272, 277 (2d Cir. 1996)). Accordingly,
judgment as a matter of law should only be granted where:
(1) there is such a complete absence of evidence
supporting the verdict that the jury’s findings
could only have been the result of sheer
surmise and conjecture, or (2) there is such an
overwhelming amount of evidence in favor of
the movant that reasonable and fair minded
[persons] could not arrive at a verdict against
[it].
Id. (citing Galdieri-Ambrosini, 136 F.3d at 289).
A. 	Rule 59(a) Motion for a New Trial.
The decision to grant a motion for a new trial,
pursuant to Rule 59(a), rests within the “sound discretion

24a
Appendix B
of the district court.” Sequa Corp. v. GBJ Corp., 156
F.3d 136, 143 (2d Cir. 1998). Such a motion should not
be granted unless the court “is convinced that the jury
has reached a seriously erroneous result or that the
verdict is a miscarriage of justice.” Kosmynka v. Polaris
Industries, Inc., 462 F.3d 74, 82 (2d Cir. 2006) (citations
omitted) (emphasis added); see also DLC Mgmt. Corp. v.
Town of Hyde Park, 163 F.3d 124, 134 (2d Cir. 1998) (noting
that the court should only grant such a motion when the
jury’s verdict is “egregious” (citing Dunlap-McCuller
v. Riese Org., 980 F.2d 153, 158 (2d Cir. 1992)). “Unlike
judgment as a matter of law, a new trial may be granted
even if there is substantial evidence supporting the jury’s
verdict.” DLC Mgmt. Corp., 163 F.3d at 134. The Court
may independently weigh the evidence and, in doing so, the
evidence need not be viewed “in the light most favorable to
the verdict winner.” Martin v. Moscowitz, 272 F. App’x 44,
47 (2d Cir. 2008) (citing DLC Mgmt. Corp., 163 F.3d at 134).
B. 	Rule 59(e) Motion to Amend the Judgment.
A party may move to “alter or amend [the] judgment”
under Rule 59(e) to add pre- and post-judgment interest.
Fed. R. Civ. P. 59(e); see also Foresco Co. v. Oh, 337 F.
Supp. 3d 304, 306 (S.D.N.Y. 2018) (citing Osterneck v.
Ernst & Whinney, 489 U.S. 169, 175-76, 109 S. Ct. 987,
103 L. Ed. 2d 146 (1989)) (“[A] Rule 59(e) motion to alter
or amend a judgment is the proper basis for bringing a
request for prejudgment interest.”). When evaluating
such a motion, “[a] district court has discretion to add
prejudgment interest to a jury award as it is not a decision
left solely for the jury.” Foresco Co., 337 F. Supp. 3d at

25a
Appendix B
306. However, while “Rule 59(e) permits a court to alter or
amend a judgment, . . . it may not be used to relitigate old
matters, or to raise arguments or present evidence that
could have been raised prior to the entry of judgment.”
Exxon Shipping Co. v. Baker, 554 U.S. 471, 485 n.5, 128
S. Ct. 2605, 171 L. Ed. 2d 570 (2008) (citation and internal
quotation marks omitted).
The Second Circuit established four factors for
evaluating a Rule 59(e) motion: (1) “the need to fully
compensate the wronged party for actual damages
suffered”; (2) “considerations of fairness and the relative
equities of the award”; (3) “the remedial purpose of the
statute involved”; and (4) “such other general principles as
are deemed relevant by the court.” Jones v. UNUM Life
Ins. Co. of Am., 223 F.3d 130, 139 (2d Cir. 2000) (citing
S.E.C. v. First Jersey Sec., Inc., 101 F.3d 1450, 1476 (2d Cir.
1996)). Moreover, the same considerations that “inform
the court’s decision whether or not to award interest at
all should inform the court’s choice of interest rate.” Id.
C. 	Motion for Attorney’s Fees
Under the Patent Act, “[t]he court in exceptional cases
may award reasonable attorney fees to the prevailing
party.” 35 U.S.C. § 285. This Circuit has defined an
“exceptional” case as one that simply “stands out from
others with respect to the substantive strength of a party’s
litigating position . . . or the unreasonable manner in which
the case was litigated.” Sleepy’s LLC v. Select Comfort
Wholesale Corp., 909 F.3d 519, 530 (2d Cir. 2018) (citing
Octane Fitness, LLC v. ICON Health & Fitness, Inc., 572

26a
Appendix B
U.S. 545, 554, 134 S. Ct. 1749, 188 L. Ed. 2d 816 (2014)).
In evaluating an exceptional case, a court must consider
“the totality of the circumstances, considering a wide
variety of factors, including ‘frivolousness, motivation,
objective unreasonableness (both in the factual and
legal components of the case) and the need in particular
circumstances to advance considerations of compensation
and deterrence.’” Id. (quoting Octane Fitness, LLC., 572
U.S. at 554 (2014)).
III. DEFENDANTS’ MOTION FOR JUDGMENT
AS A MATTER OF LAW IS DENIED
Defendants’ renewed motion for judgment as a matter
of law 2 challenges Claim 27(h) of the ’485 Patent, which
reads:
said hollow hub and hollow drum being sized
such that the screw can move into the hollow
hub to allow the hollow drum to receive the
screw as the cable unwinds from or winds up on
the drum as the object moves to its respective
down or up position.
(Defs.’ Mem. of Law in Supp. of its Renewed Mot. for J.
as a Matter of Law (“Defs.’ JMOL Mem.”), ECF No. 330,
at 7 (citing the ’485 Patent, at col. 15, 1. 1-15).)
2. Defendants first moved for judgment as a matter of law
during trial on December 14, 2018. (Defs.’ Pre-Verdict Not. Of Mot.
for Judgment as a Matter of Law (“Defs.’ Pre-Verdict JMOL Mot”),
ECF No. 313.) Judge Sweet heard oral argument that same day and
denied the motion without prejudice. (Tr. Trans. at 546:5-547:16,
551:22-25.)

27a
Appendix B
Defendants argue that this Court should grant
judgment as a matter of law in their favor for two reasons:
(1) “[Claim 27(h)] is vitiated by the Vortek shaft, which
prevents the hub and drum from being sized such that
the drum can receive the screw” (the “Vitiation Claim”);
and (2) “[Claim 27(h)] cannot capture a winch with a shaft
because the use of a shaft was expressly disclaimed in
the ’485 Patent” (the “Disclaimer Claim”). (Defs.’ JMOL
Mem. at 12, 19.)
A party bringing a motion for judgment as a matter
of law must meet a “particularly heavy burden where, as
here, the jury has deliberated in the case and actually
returned its verdict in favor of the non-movant.” Eastman
Kodak Co. v. Ricoh Co., Ltd., 4 F. Supp. 3d 574, 577 (2d
Cir. 2014) (citing Carroll v. Cty. of Monroe, 712 F.3d 649,
651 (2d. Cir. 2013)). Defendants have not met this burden
here on either the Vitiation Claim or the Disclaimer Claim.
The Vitiation Claim fails because the Vortek performs
“substantially the same function, in substantially the
same way” as the ’485 Patent Winch, thereby meeting
the standard for the doctrine of equivalents. Romag
Fasteners, Inc. v. Mitzi Int’l Handbag & Accessories, Ltd.,
323 F. Supp. 2d 512, 518 (2d Cir. 2004) (citation omitted).
Defendants’ Disclaimer Claim also fails because they
did not raise it in their original motion for judgment as a
matter of law at the close of trial. See Tolbert v. Queens
College, 242 F.3d 58, 70 (2d Cir. 2001) (“The posttrial
motion is limited to those grounds that were ‘specifically
raised in the prior motion for [JMOL].’” (quoting McCardle
v. Haddad, 131 F.3d 43, 51 (2d Cir. 1997))).

28a
Appendix B
A. 	Defendants’ Vitiation Claim Fails.
Under the doctrine of equivalents, an accused
device may infringe a patented invention even when
“the accused device does not contain every element of
the patented invention, . . . if the differences between
the claimed invention and the accused device are
insubstantial.” Romag Fasteners, Inc., 323 F. Supp.
2d at 518 (internal quotation marks omitted) (emphasis
added). The Second and Federal Circuits have found
differences to be “insubstantial” where, for each disputed
element, the accused product performs “substantially
the same function, in substantially the same way, to
give substantially the same result” (the “function-wayresult test”). Id. (citing Hormone Research Found., Inc.
v. Genentech, Inc., 904 F.2d 1558, 1564 (Fed. Cir. 1990)
(emphasis added)). Moreover, “[t]hese circumstances are
met when the alleged infringer seeks to appropriate the
invention with minor modifications to avoid the literal
language of the claims.” Carman Indus., Inc. v. Wahl,
724 F.2d 932, 942 (Fed. Cir. 1983).
Vitiation is best understood not as “an exception
to the doctrine of equivalents, but instead [as] a legal
determination that ‘the evidence is such that no reasonable
jury could determine two elements to be equivalent.’”
Brilliant Instruments, Inc. v. GuideTech, LLC, 707 F.3d
1342, 1347 (Fed. Cir. 2013) (quoting Deere & Co. v. Bush
Hog, LLC, 703 F.3d 1349, 1356 (Fed. Cir. 2012)); see also
Cadence Pharms., Inc. v. Exela PharmSci Inc., 780 F.3d
1364, 1371 (Fed. Cir. 2015) (defining vitiation as a “legal
conclusion of a lack of equivalence based on the evidence

29a
Appendix B
presented and the theory of equivalence asserted”). In fact,
“the proper inquiry for the court is to apply the doctrine
of equivalents, asking whether an asserted equivalent
represents an ‘insubstantial difference’ from the claimed
element, or ‘whether the substitute element matches the
“function,” “way,” and “result” of the claimed element.’”
Brilliant Instruments, Inc., 707 F.3d at 1347 (quoting
Deere & Co., 703 F.3d at 1349). The Federal Circuit also
notes that when conducting a vitiation analysis, “[c]
ourts should be cautious not to shortcut this inquiry by
identifying a ‘binary’ choice in which an element is either
present or ‘not present.’” Deere & Co., 703 F.3d at 1356.
Here, the jury had ample evidence to find that the
Vortek “performed substantially the same function, way
and result as provided by the hub/drum arrangement
of the ’485 patent.” (Pl.’s Opp’n to Daktronics’ Renewed
Mot. Pursuant to FRCP Rule 50(b) for J, as a Matter of
Law (“Pl.’s JMOL Opp’n”), ECF No. 336, at 18; Trial Tr.
170:16-172:16.) The jury also concluded that stopping the
screw two inches from the plane of the grooved portion
of the Vortek did not make a substantial difference.
(Pl.’s JMOL Opp’n at 18; Trial Tr. 841:12-21.) In other
words, the jury found that these differences between the
hollow hubs in the ’485 Patent Winch and the Vortek are
insubstantial. See Romag Fasteners, Inc., 323 F. Supp. 2d
at 518. Accordingly, the jury found that the Vortek’s hollow
hub is equivalent to the ’485 Patent Winch’s hollow hub.
Defendants nonetheless allege that the Vortek’s
shaft vitiates Claim 27(h) of the ’485 Patent because the
“shaft causes the Vortek to be the antithesis of [Claim

30a
Appendix B
27(h)].” (Defs.’ JMOL Mem. at 12 (emphasis added).) This
is because the Vortek’s shaft is solid, which “prevents
the hollow hub and hollow drum being sized such that
the drum can receive the screw.” (Id. at 12.) In short,
Defendants argue that if the Vortek’s shaft prevents the
screw from entering the drum, the Vortek’s hub and drum
are the antithesis to, or opposite of, the ’485 Patent Winch’s
hollow hub, as described in Claim 27(h). (Id. at 18.)
However, “the determination of equivalence depends
not on labels like ‘vitiation’ and ‘antithesis’ but on the proper
assessment of the language of the claimed limitation and
substantiality of whatever relevant differences may exist
in the accused structure.” Cadence Pharms., 780 F.3d
at 1372 (emphasis added). Moreover, where a reasonable
trier of fact concluded that a process is “insubstantially
different from that recited in the claims,” as the jury
did in this case, “the argument that a claim limitation is
vitiated by the district court’s application of the doctrine
of equivalents is both incorrect and inapt.” Id.
To properly assess the “language of the claimed
limitation,” this Court must consider the exact language
defining the ’485 Patent Winch’s hollow hub and drum in
the ’485 Patent. Here, all the descriptions of the hollow
hub unambiguously indicate that the hollow hub is part
of not separate from, the drum. The language of the ’485
Patent is unambiguous in describing the hollow drum
as “drum 11,” which “can be constructed of one tubular
member 12, one drive end cap 13, and one brake end cap
14, all welded together.” (Bressler Decl., Ex. 1 (The ’485
Patent) at col. 5, 1. 7-9 (emphasis added).) The ’485 Patent

31a
Appendix B
goes on to state, “the cable drum 11 is supported from
bearing 39 by an elongated hub, part of the cable drum 11
brake end cap 14.” (Id. at col. 3, 1. 59-61 (emphasis added).)
It also states that “[a] nut 53 is non-rotatably mounted to
the drum assembly 10 brake end cap 14 elongated hub,
which hub is hollow so that the screw 51 can pass, via the
hollow hub, inside the drum 11, which is also hollow.”
(Id., at col. 4, 1. 37-41 (emphasis added).) Moreover, Judge
Sweet construed the hollow hub as “a portion of the drum
end caps within an elongated opening to allow passage of
the elongated screw.” (Claim Constr. Op. at 14 (emphasis
added).) Accordingly, as Plaintiff correctly points out,
because of this construction of Claim 27(h), “the Vortek
hub/drum assembly unquestionably ‘receives the screw’
as found by the jury.” (Pl.’s JMOL Opp’n at 1.)
Furthermore, Plaintiff convincingly argues that
“construing the hub as separate from the drum would
render several claim terms unintelligible.” (Id. at 16.)
Claim 27(g) of the ’485 Patent reads “said [elongated]
screw extending mainly outside of the hollow drum
when the cable is wound up on or unwound from the
drum.” (Bressler Decl., Ex. 1 (The ’485 Patent) at col. 15,
1. 54-57.) Figure 2 in the ’485 Patent depicts the screw as
“completely outside the tubular member 12 (the ‘drum’ in
Daktronics’ view) while still partially within the hub. . . .
As such, the hollow hub must be part of the hollow drum.”
(Pl.’s JMOL Opp’n at 16 (emphasis added).)
Plaintiff’s analogy is also helpful: “the drum includes
a hollow hub” is akin to “the car includes a trunk,” such
that “if you place a suitcase in the trunk the car ‘receives

32a
Appendix B
the suitcase.’” (Pl.’s JMoL opp. at 6 n.2.) defendants
nonetheless reiterate that the hollow hub is separate and
apart from the hollow drum by attempting to repurpose
Plaintiff’s analogy. (defs.’ reply in Supp. of its renewed
Mot. for J. as a Matter of Law (“defs.’ JMoL reply”),
ecf no. 362, at 1.) defendants argue that inserting a
suitcase in a trunk large enough to fit it entirely (the
“Vortek car”) is “substantially different” from inserting
a suitcase in a trunk that is so small that the suitcase fi lls
the trunk and part of the back-passenger compartment
(the “oSt car”). (Id.)

( Id.) according to defendants, this comparison is
equivalent to inserting a screw into a hollow hub large
enough to fit it entirely (the Vortek Winch), as opposed
to inserting a screw in a hollow hub that is so small that
the screw fi lls the hollow hub and part of the hollow drum
(the ’485 Patent winch). (Id.)

33a
Appendix B

(defs.’ July 9, 2019 oral arg. Presentation, slides 14, 17.)
defendants’ further attempt to repurpose Plaintiff’s
analogy by adapting the language of claim 27 (h) using
car components: “said hollow trunk and hollow passenger
compartment being sized such that the suitcase can
move into the hollow trunk to allow the hollow passenger
compartment to receive the suitcase.” (defs.’ JMoL
reply at 1 (emphasis added).) however, this adaptation
misconstrues the proper construction of claim 27(h)—
supported by the overwhelming evidence in the language
of the ’485 Patent—which is that the hollow hub is part of
the hollow drum. accordingly, the correct adaptation of
claim 27 (h) using car components is: said hollow trunk
and hollow car being sized such that the suitcase can move
into the hollow trunk to allow the hollow car to receive
the suitcase. if a suitcase is in a trunk, then it is in a car,
much like if a screw is in the hub, then it is in the drum.
the proper construction of claim 27(h) also undermines
defendants’ argument that the shaft in the Vortek drum
makes it “impossible for the screw to pass into the drum.”
(defs.’ JMoL Mem. at 18.) in fact, if the ’485 Patent winch
contained a shaft akin to that in the Vortek, it would make

34a
Appendix B
it impossible for the screw to pass into tubular member 12,
not drum 11. (Bressler Decl., Ex. 1 (The ’485 Patent) at col.
5, 1. 7-9, fig. 2.) This is because the screw would still be able
to enter the end cap (hub) 14, which is part of drum 11. (Id.
at col. 5, 1. 7-9.) Therefore, as Plaintiff properly points out,
given the “overwhelming evidence that the hollow drum
necessarily includes its hub . . . when the ‘screw’ moves
into the ‘hub’ in the Vortek product, the drum literally
‘receives’ the screw.” (Pl.’s JMOL Opp’n at 16.)
Defendants point to several cases where the Federal
Circuit found no infringement under the doctrine of
equivalents due to claim vitiation, but these cases are
inapposite. (Defs.’ JMOL Mem. at 14-17 (collecting cases).)
As Plaintiff correctly points out, Defendants’ analysis
is “dominated by cases describing vitiation without
acknowledging that each case stands on its own facts.”
(Pl.’s JMOL Opp’n at 17.) Specifically, the cases that
Defendants rely on involve findings of opposite meaning
as opposed to limitations of positional degree and are
therefore not dispositive of this case. See e.g., Hoganas
AB v. Dresser Indus., Inc., 9 F.3d 948 (Fed. Cir. 1993)
(finding a “hollow straw-shaped” fiber forming element is
the opposite of a “solid fiber” of a different shape); Moore
U.S.A., Inc. v. Standard Register Co., 229 F.3d 1091
(Fed. Cir. 2000) (finding that “majority” is the opposite of
“minority”); Asyst Techs. v. Emtrak, Inc., 402 F.3d 1188
(Fed. Cir. 2005) (concluding that the “mounted” limitation
is the opposite of “unmounted”); Planet Bingo, LLC v.
GameTech Intern., Inc., 472 F.3d 1338 (Fed. Cir. 2006)
(determining that the winning combination “before” the
first ball dropped is the opposite of doing so “after” the
ball dropped).

35a
Appendix B
In sum, the jury relied on ample evidence that the
hollow drum and the hollow hub are not separate entities
for purposes of receiving the elongated screw. In fact, the
text of the ’485 Patent clearly establishes that the hollow
hub is part of the drum. Therefore, the jury in this case
found that the Vortek winch has an equivalent to Claim
27(h). (Trial Tr. 841:12-21.) Separate and apart from the
overwhelming evidence, significant deference is given to
a jury’s verdict and Defendants have an extremely heavy
burden to overturn such a verdict. See Eastman Kodak
Co., 4 F. Supp. 3d at 577; Cadence Pharms. Inc., 780 F.3d
at 1372. After reviewing the underlying evidence, this
Court determines that Defendants have not met this
heavy burden.
B. 	Defendants’ Disclaimer Claim Fails.
Where a claim has not been raised in the original Rule
50(a) motion for judgment as a matter of law, it cannot be
asserted in a renewed Rule 50(b) motion. See Holmes v.
United States, 85 F.3d 956, 962 (2d Cir. 1996) (“Together,
Rules 50(a) and (b) ‘limit the grounds for judgment [as
a matter of law] to those specifically raised in the prior
motion for a directed verdict.”) (quoting Lambert v.
Genesee Hosp., 10 F.3d 46, 54 (2d Cir. 1993)). This is in part
because the “earlier motion informs the opposing party of
the challenge to the sufficiency of the evidence and affords
a clear opportunity to provide additional evidence that
may be available.” Lore v. City of Syracuse, 670 F.3d 127,
153 (2d Cir. 2012) (citation omitted). The Second Circuit
has held that this “specificity requirement is obligatory.”
Holmes, 85 F.3d at 962 (citation omitted).

36a
Appendix B
Defendants did not assert their Disclaimer Claim in
their pre-verdict motion for judgment as a matter of law.
(Defs.’ Pre-Verdict Not. of Mot. for Judgment as a Matter
of Law (“Defs.’ Pre-Verdict JMOL Mot.”), ECF No. 313.)
While this Court may nevertheless “grant a motion to
alter or amend a judgment ‘to correct a clear error of
law or prevent manifest injustice,’” Guzman v. Jay, 303
F.R.D. 186, 196 (S.D.N.Y. 2014) (quotinf Munafo v. Metro.
Transp. Auth., 381 F.3d 99, 105 (2d Cir. 2004)), this case
presents neither.
Defendants argue that Plaintiff was put on notice
of the Disclaimer Claim through a summary judgment
motion that Defendants made before trial, and that the
claim is therefore permissible. (Defs.’ JMOL Reply at 8.)
But that is not the standard that Rule 50 requires. Rather,
Rule 50 unequivocally states that “[a] motion for judgment
notwithstanding the verdict will not lie unless it was
preceded by a motion for a directed verdict made at the
close of all the evidence.” Fed. R. Civ. P. 50(b) (1963 Am.).
Defendants attempt to argue that they are entitled to an
exception to this rule based on “legal error” and to prevent
“manifest injustice.” (Letter from Domingo M. Llagostera
dated Jul. 25, 2019, ECF No. 402, at 1-2.) However, this
Court does not find that “relieving defendants of their
procedural default is necessary to avoid injustice” in
this case. Kirsch v. Fleet St. Ltd., 148 F.3d 149, 164 (2d
Cir. 1998). Defendants had ample opportunity to present
their case to the jury. The jury nonetheless found that
the Vortek had an equivalent to Claim 27(h). (Trial Tr.
170:16-172:16.)

37a
Appendix B
Accordingly, upon reviewing the underlying evidence,
Defendants’ motion for judgment as a matter of law is
DENIED.
IV. DEFENDANTS’ MOTION FOR
A NEW TRIAL IS DENIED
Defendants move for a new trial pursuant to Rule 59
on four grounds: (1) “the jury’s doctrine of equivalents
findings for each of the four disputed claim elements are
against the great weight of the evidence”; (2) “the Court’s
preclusion of prior art . . . was unfairly prejudicial to
[Defendants] and resulted in a miscarriage of justice”;
(3) “the jury’s damages award was excessive”; and (4)
“the Court charged the jury erroneously by striking
[Defendants’] instruction on claim vitiation.” (Defs.’ Mem.
of Law in Supp. of Mot. for New Trial, or Alternatively,
Remittitur (“Defs.’ New Trial Mem.”), ECF No. 347, at 2.)
“[A] trial court should not grant a motion for a new trial
unless it is ‘convinced that the jury . . . reached a seriously
erroneous result or that the verdict is a miscarriage of
justice.’” Ali v. Kipp, 891 F.3d 59, 64 (2d Cir. 2018) (quoting
Amato v. City of Saratoga Springs, 170 F.3d 311, 314 (2d
Cir. 1999)). Defendants point out that a “trial judge may
overturn a jury’s verdict, even where there is ‘substantial
evidence’ to support it.’” United States v. Landau, 155 F.3d
93, 104 (2d Cir. 1998) (citations omitted). However, while
judges have the power and ability to “weigh the evidence
. . . [and] consider the credibility of witnesses,” Landau,
155 F.3d at 104, “judges should not become a ‘13th juror’”
when doing so, TradeCard, Inc. v. S1 Corp., 509 F. Supp.

38a
Appendix B
2d 304, 323 (S.D.N.Y. 2007) (quoting Akermanis v. SeaLand Service, Inc., 521 F. Supp. 44, 48 (S.D.N.Y. 1981)).
As such, “motions for new trials should rarely be granted”
and the standard for doing so is especially high for jury
verdicts that “’should rarely be disturbed.’” TradeCard,
509 F. Supp. 2d at 323 (quoting Farrior v. Waterford Bd.
of Educ., 277 F.3d 633, 635 (2d Cir. 2002)).
In this case, there was no “miscarriage of justice,” nor
was the jury “seriously erroneous” in finding equivalent
elements in the Vortek and the ’485 Patent Winch.
Defendants’ motion for a new trial is therefore DENIED.
A. 	The Jury’s Verdict for the Four Disputed
Claims Was Not Against the Great Weight of
the Evidence.
Finding infringement is a two-step process: (1) “the
court must construe the asserted claims as a matter of law
to ascertain their meaning and scope,” and (2) “the claims
as construed are compared to the allegedly infringing
device.” Dawn Equip. Co. v. Kentucky Farms Inc., 140
F.3d 1009, 1014 (Fed. Cir. 1998). “Each claim limitation
must [also] be present in the accused product, literally or
equivalently.” Id. (emphasis added).
Under the doctrine of equivalents, the “determination
of equivalence should be applied as an objective inquiry
on an element-by-element basis.” Regeneron Pharms. v.
Merus B.V., No. 14 Civ. 1650 (KBF), 2014 U.S. Dist. LEXIS
152924, 2014 WL 5463376, at *3 (S.D.N.Y. 2014) (quoting
Warner-Jenkinson Co. v. Hilton Davis Chem. Co., 520

39a
Appendix B
U.S. 17, 40, 117 S. Ct. 1040, 137 L. Ed. 2d 146 (1997)).
During this inquiry, the patent holder must establish that
each disputed element satisfies the “function-way-result
test.” See Romag Fasteners, Inc., 323 F. Supp. 2d at 518
(“The patent holder must establish that with respect to
each disputed element the accused product performs
‘substantially the same function, in substantially the
same way, to give substantially the same result’” (quoting
Hormone Research Found., Inc. v. Genentech, Inc.,
904 F.2d 1558, 1564 (Fed. Cir. 1990)) (emphasis added));
Warner-Jenkinson Co., 520 U.S. at 39 (holding that the
“function-way-result test” is “suitable for analyzing
mechanical devices”).
a. 	Claim 27(b): The “Base Member” Element.
Claim 27(b) is “a base member having first and second
end portions.” (Bressler Decl., Ex. 1 (The ’485 Patent)
at col. 15, 1. 32.) Judge Sweet defined “base member” as
“one or more components of the winch, including first and
second end portions, which are connected to and separate
from the carriage, supporting the drum.” (Claim Constr.
Op. at 8.)
Defendants make three arguments as to why the jury’s
verdict regarding Claim 27(b) was “seriously erroneous”
and a “miscarriage of justice”: (1) “[Plaintiff’s doctrine
of equivalents] analysis for the base member completely
ignored the Court’s claim construction requiring a
horizontal member”; (2) “[Plaintiff] did not offer evidence
to prove the claimed base member way is substantially
similar to the Vortek’s base member way”; and (3) “the

40a
Appendix B
‘base member’ element has been vitiated.” (Defs.’ New
Trial Mem. at 5-6.)
As to Defendants’ first argument, Judge Sweet noted
during claim construction that “for literal infringement,
there must be a horizontal member.” (Claim Constr.
Op. at 20 (emphasis added).) But the ’485 Patent is clear
that while a horizontal member may be used to connect
the base, “other means for constructing the base 30, or
connecting its components to each other, can be used.”
(Bressler Decl., Ex. 1 (The ’485 Patent) at col. 5, 1. 37-39
(emphasis added).) Accordingly, in ruling on Defendants’
summary judgment motion, Judge Sweet held that “the
Vortek winch’s base member is infringing under the
doctrine of equivalents” because to find “that there is no
infringement for having a base member that supports
the drum, but lacks a horizontal member would allow
[u]nimportant and insubstantial substitutes for certain
elements [to] defeat the patent.’” (Claim Constr. Op.
at 22 (quoting Festo Corp. v. Shoketsu Kinzoku Kogyo
Kabushiki Co., 535 U.S. 722, 731, 122 S. Ct. 1831, 152 L.
Ed. 2d 944 (2002)); Pl.’s Mem. of Law in Opp’n to Defs.’
Mot. for New Trial or Remittitur (“Pl.’s New Trial Opp’n”),
ECF No. 367, at 3.)
Defendants’ expert Dr. Charles Garris testified at
trial that the base member functions provide: (1) “slideable
support,” (2) “rigidity,” and (3) “the ability to mount
an overspeed break”, which is achieved “through the
horizontal member.” (Trial Tr. 499:1-24; Defs.’ New Trial
Mem. at 5.) Defendants attempt to use this testimony to
argue that the Vortek does not have a horizontal member

41a
Appendix B
and that it therefore “does not have the rigidity required
nor the ability to hold a[n] [overspeed] break.” (Defs.’
New Trial Mem. at 5-6.) But Plaintiff properly points out
that “the overspeed brake is not in asserted Claims 21 or
27; and is part of an alternate configuration not at issue
in this case.” (Pl.’s New Trial Opp’n at 4.) Moreover, the
horizontal member is merely one means of connecting the
base, and the ’485 Patent specifically contemplates that
other means “can be used.” (Bressler Decl., Ex. 1 (The ’485
Patent) at col. 5, 1. 37-39.) As such, Defendants’ argument
goes against Judge Sweet’s construction of Claim 27(b)
and the language of the ’485 Patent.
Regarding their second argument, Defendants
assert that “there is absolutely no evidence that the
alleged Vortek base member is substantially the same
as the claimed base member.” (Defs.’ New Trial Mem.
at 6 (emphasis omitted).) But this argument ignores the
evidence and testimony presented at trial. In fact, Plaintiff
testified specifically as to how the ’485 Patent Winch’s
base member compares to the “function,” “way,” and
“result” of the Vortek base member, concluding that the
two base members are equivalent in all aspects. (Trial Tr.
138:16-139:20.) Accordingly, the jury was given sufficient
evidence to appropriately reach a verdict that the ’485
Patent Winch’s base member and the Vortek base member
are equivalent.
Defendants’ finally argue that Claim 27(b) was
vitiated, again making an inappropriate binary argument
that “two elements likely are not insubstantially different
when they are polar opposites.” (Defs.’ New Trial Mem. at

42a
Appendix B
7 (citing Brilliant Instruments, 707 F.3d at 1347).) Yet, the
Federal Circuit has rejected precisely this type of binary
analysis. (Pl.’s New Trial Opp’n at 5); see Deere & Co., 703
F.3d at 1356. Defendants have not met their burden of
showing how the ’485 Patent Winch’s base member is the
“exact opposite” of the Vortek’s base member. They also
fail to adequately challenge how it meets the “functionway-result” test.
Accordingly, Defendants have not shown that the
jury’s verdict regarding Claim 27(b) was “seriously
erroneous,” “a miscarriage of justice,” or against the great
weight of the evidence.
b. 	Claim 27(d): The “First Means Structure”
Element.
Judge Sweet construed Claim 27(d), which describes
the ’485 Patent Winch’s “first means structure,” as follows:
[T]he structure is two slides 45 that are
mounted to the carriage and engage linear
bearings, which can be a combination of 35A
and 35B that are mounted to the top of the base
member’s first and second end portions that
function to slideably mount the base member
to the carriage providing relative linear motion
between the carriage and the base member.
(Claim Constr. Op. at 13.) Defendants provide a diagram
of the first means structure in their motion for a new trial:

43a
Appendix B

(defs.’ new trial Mem. at 8.) defendants argue that claim
27(d) does not meet the “function-way-result” test and
that the Vortek’s fi rst means structure is therefore not
equivalent to the claimed first means element. (Id. at 8-11.)
As to the first means structure’s “function”, Defendants
claim that because the “tail base portion of the Vortek
is affixed, the so-called Vortek base member cannot

44a
Appendix B
slide relative to the carriage as required by the Court’s
construction.” (Id. at 9.) But this again misconstrues the
doctrine of equivalents. Indeed, Judge Sweet denied
summary judgment to Defendants on this exact issue
because a “reasonable factfinder could find the Vortek’s
design . . . [contained] an ‘insubstantial structural
difference’ that is structurally equivalent in performing an
equivalent function to the ’485 Patent.’” (Recons. of Summ.
J. Op. at 5; PL’s New Trial Opp’n at 7 (citation omitted).)
At trial, Plaintiff described how the Vortek’s first means
structure performs substantively the same “function” as
the ’485 Patent Winch’s first means structure because the
drum is allowed to move relative to the carriage. (Trial
Tr. 142:4-9,148:21-23,149:5-14; Pl.’s New Trial Opp’n at
6.) Dr. Garris agreed that moving the drum laterally “is
essential to any zero-fleet angle winch.” (Trial Tr. 574:515.) Accordingly, the jury was presented with sufficient
evidence to reasonably conclude that the first means
structure’s “function” is equivalent in the Vortek and the
’485 Patent Winch.
Plaintiff offered evidence at trial that the ’485 Patent
considers two “ways” to structure the first means structure
in “three-bearing and four-bearing arrangements.” (Trial
Tr. 99:2-100:3, 143:13-17, 143:23-144:15; Pl.’s New Trial
Opp’n at 7.) Dr. Garris also confirmed this in his trial
testimony, stating: “Yes. The patent talks about a threebearing system.” (Trial Tr. 586:3-12.) Plaintiff also offered
testimony that “the Vortek employed the three-bearing
arrangement that uses the same linear bearings disclosed
in the ’485 patent—with two linear bearings on the motor
bracket and one linear bearing on the screw end bracket.”
(Pl.’s New Trial Opp’n at 7; Trial Tr. 144:19-145:25, 146:6-10.)

45a
Appendix B

(Pl.’s new trial opp’n at 7-8.) in short, the only clear
difference between the fi rst means structures in the
’485 Patent winch and the Vortek is the placement of the
third bearing. this difference is not substantial because
both structures allow the “motor end base member—
and, critically, its drum—to move with respect to the
carriage.” (Id. at 8.) Based on this evidence, a reasonable
jury could find that the “ways” in which these two fi rst
means structures move the base member are equivalent.
Defendant finally argues that the “result” of the fi rst
means structure in the ’485 Patent winch is not equivalent
to the “result” of the Vortek’s first means structure
because the “[c]ourt defi ned the fi rst means as allowing
the base to move, not the drum.” (defs.’ new trial Mem.
at 10-11.) Plaintiff testified during trial, however, that “the
drum [in both structures] is moving in its longitudinal axis
with respect to the carriage while it’s being supported
laterally in all other directions.” (trial tr. 150:25-151:4.) in
short, relying on this evidence, the jury reasonably found
that the alleged differences in “results” between the two
fi rst means structures were insubstantial.

46a
Appendix B
Accordingly, while the first means structures in the
’485 Patent Winch and the Vortek are not literally the
same, a reasonable fact finder could (and did) find them to
be equivalent under the “function-way-result” test.
c. 	Claim 27(e): The “Hollow Hub” Element.
Judge Sweet construed “hollow hub” as “a portion
of the drum end cap with an elongated opening to allow
passage of the elongated screw.” (Claim Constr. Op. at 14.)
Defendants make three arguments as to why the jury’s
verdict regarding Claim 27(e) is “seriously erroneous”
and a “miscarriage of justice”: (1) Claim 27(e) fails the
“function-way-result” test; (2) Plaintiff disclaimed the
shaft; and (3) the jury’s verdict “vitiates the ‘hollow hub’
element.’” (Defs.’ New Trial Mem. at 11-16.)
Regarding the “function” of the hollow hub, Defendants
note that Plaintiff and Dr. Garris “agree that the claimed
hollow hub and the Vortek shaft (what [Plaintiff] called
the Vortek hollow hub) perform two functions: moving
and supporting the drum.” (Defs.’ New Trial Mem. at 12.)
While Defendants acknowledge that the Vortek’s hollow
hub “engages the ACME screw axially to move the drum,”
they argue that Plaintiff did not offer testimony at trial
on how the ’485 Patent’s and Vortek’s hollow hubs support
the drum. (Id. at 12-13 (emphasis added).) This statement
ignores the fact that Plaintiff introduced “evidence [that]
demonstrated that the Vortek extended hub supports
the drum by being rotatably journalled to a bearing on
the base member.” (Trial Tr. 92:24-93:1, 93:5-12, 94:918, 133:16-24, 135:8-13, 138:23-139:6, 149:3-14, 150:15-19,

47a
Appendix B
157:5-15, 190:15-18; Pl.’s New Trial Opp’n at 12.) Moreover,
Plaintiff also notes that even Dr. Garris “agreed that
the Vortek extended hub acts as a beam that transfers
lateral loads from the drum by being rotatably journalled
into a bearing on the base member.” (Trial Tr. 536:10-11,
536:15-19, 554:11-20, 557:19-558:9, 574:12-15; Pl.’s New
Trial Opp’n at 13.) Accordingly, Plaintiff presented ample
evidence to support a finding that the Vortek’s hollow hub
performed substantially the same “function” as the ’485
Patent Winch’s hollow hub.
Regarding the “way” the two hollow hubs perform
their moving and supporting “functions,” Defendants
argue that the Vortek hollow hub has a “much simpler
design” than the ’485 Patent Winch’s hollow hub, and
therefore supports the drum in a “substantially different
way.” (Defs.’ New Trial Mem. at 13.) But at trial, the jury
was presented with testimony from Defendants’ own
expert admitting that the design of the Vortek is not
relevant to the “way” that the hollow hub supports the
drum. (Trial Tr. at 558:1-9; Pl.’s New Trial Opp’n at 13.)
The jury therefore reasonably concluded that the Vortek’s
and the ’485 Patent Winch’s hollow hubs move and support
the drum in substantially the same “way.”
As to the respective hollow hubs’ “results,” Defendants
arg ue that the ev idence Plaintiff presented was
“conclusory” and exactly the kind of “testimony that
the Federal Circuit has deemed insufficient to prove
the [doctrine of equivalents].” (Defs.’ New Trial Mem. at
13.) Defendants point to several inapposite cases where
the Federal Circuit found that testimony lacking any

48a
Appendix B
particularized discussion of structure or functionality
could not support a finding of equivalence. (Id.) That
is not the case here. Rather, Plaintiff presented ample
testimonial and documentary evidence to support the jury’s
conclusion that both hollow hubs produced substantially
the same “result.” (Trial Tr. 94:9-25, 123:6-17, 135:8-13,
138:23-139:14, 154:24-155:1, 155:9-16, 155:25-156:7, 162:25163:10, 522:15-25, 540:5-12; Pl.’s New Trial Opp’n at 14);
see Texas Instruments, Inc. v. Semiconductor Corp., 90
F.3d 1558, 1567-68 (Fed. Cir. 1996) (rejecting a conclusory
statement that claimed and accused processes were the
same); Malta v. Schulmerich Carillons, Inc., 952 F.2d
1320 (Fed. Cir. 1991) (rejecting expert testimony merely
noting that two structures “function” similarly).
In arguments (2) and (3), Defendants merely reiterate
the claims made in their motion for judgment as a matter
of law. This Court rejected those arguments in Section III,
supra, and need not revisit them here. Accordingly, this
Court finds that the jury considered ample evidence that
the Vortek’s hollow hub is equivalent to the ’485 Patent
Winch’s hollow hub.
d. 	Claim 27(h): The “Screw Into Drum”
Element.
Defendants again reiterate the same argument that
they made in their motion for judgment as a matter of law
that the Vortek’s shaft vitiates Claim 27(h) “because it does
not allow the screw to go into the drum” and is therefore
“the polar opposite of allowing it to go in.” (Defs. New
Trial Mot. at 16.) This Court addressed this argument in

49a
Appendix B
Section III, supra, denying Defendants’ Vitiation Claim.
Therefore, Defendants’ argument pertaining to Claim
27(h) is dismissed for the same reasons.
B. 	The Court Properly Precluded Defendants’
Prior Art.
According to Defendants, Judge Sweet made “a
prejudicial evidentiary ruling that likely swayed the
jury in [Plaintiff’s] favor when it precluded the jury from
hearing about the prior art.” (Defs.’ New Trial Mem. at
19.) Plaintiff responds with three arguments as to why
that is not the case: (1) Defendants previously withdrew
their “affirmative defense that [the ’485 Patent] is invalid
for failure to satisfy the conditions of patentability set
forth in 35 U.S.C. §§ 101, 102, 103 and/or 112” (Joint Stip.
& [Proposed] Order Regarding the Withdrawal of Certain
Aff. Defenses (“Withdrawal Stip.”), ECF No. 135, at 1);
(2) “the prior art was irrelevant to this dispute at trial”;
and (3) Federal Rule of Civil Procedure 61 “forecloses
[Defendants’] [n]ew [t]rial demand.” (Pl.’s New Trial Opp’n
at 16-19.)
Before trial, Defendants petitioned the Patent Trial
and Appeals Board (“PTAB”) to conduct an inter partes
review (“IPR”) to invalidate the ’485 Patent based on
prior art. The PTAB rejected this petition, noting that
“based on [its] review of the record, [it] conclude[s] that
[Defendant] has failed to demonstrate that it is reasonably
likely to prevail with respect to any of its challenges.”
(Pl.’s New Trial Opp, Ex. H (“PTAB Decision”), ECF
No. 368-8, at 2.) Accordingly, Defendants withdrew their

50a
Appendix B
invalidity defense on May 15, 2017. (Withdrawal Stip.) This
is critical because “[w]here validity in view of the prior
art has not been challenged, the court is less free to limit
the application of the doctrine of equivalents than where
invalidity is specifically urged by the alleged infringer.”
Thomas & Betts Corp. v. Litton Sys., Inc., 720 F.2d 1572,
1580 (Fed. Cir. 1983).
Defendants now attempt to argue that “with the
benefit of this prior art, the jury would have understood
that the [’485 Patent W]inch is not pioneering and is thus
only entitled to a limited breadth of equivalents.” (Defs.’
New Trial Mem. at 22.) This argument flies in the face of
Defendants’ withdrawal of their invalidity defense and the
PTAB’s decision rejecting Defendants’ prior art invalidity
argument. Moreover, Defendants filed a motion in limine
seeking to block Plaintiff’s use of “(i) [Defendants’] failed
IPR and (ii) the withdrawal of its invalidity claim.” (Pl.’s
New Trial Opp’n at 16; Defs.’ Mots. In Limine at 6-7.)
Accordingly, as Plaintiff argues, Defendants’ “successful
argument that the detailed PTAB analysis on this [p]
rior [a]rt was ‘irrelevant’ and should be excluded cannot
be reconciled with its current position.” (Pl.’s New Trial
Opp’n at 18-19.)
Defendants also attempt to rely on cases indicating
that, under the doctrine of equivalents, “a greater
degree of liberality and a wider range of equivalents are
permitted where the patent is of a pioneer character than
when the invention is simply an improvement.” (Defs.’
New Trial Mem. at 19 (quoting Cimiotti Unhairing Co.
v. Am. Fur Refining Co., 198 U.S. 399, 406, 25 S. Ct.

51a
Appendix B
697, 49 L. Ed. 1100, 1905 Dec. Comm’r Pat. 729 (1905)).)
Defendants attempt to argue that inclusion of the prior
art would illustrate to the jury that the ’485 Patent is not
of pioneering quality and that a finding of equivalence
would therefore be erroneous. (Defs.’ New Trial Mem.
at 21-22.) Yet, Defendants overlook Warner-Jenkinson
Co. v. Hilton Davis Chemical Co., where the Supreme
Court “largely eliminated any role for pioneering status
. . . [holding] that equivalents must be determined on a
limitation by limitation basis.” (Pl.’s New Trial Opp’n at
21 (citing 520 U.S. 17, 29-30, 117 S. Ct. 1040, 137 L. Ed. 2d
146 (1997)) (“[T]he doctrine of equivalents must be applied
to individual elements of the claim, not to the invention
as a whole.”) (emphasis in original).) In erroneously
emphasizing the pioneering status of the patent as integral
to a doctrine of equivalents analysis, Defendants do not
point to any controlling authority decided after WarnerJenkinson.
Plaintiff also points out that the prior art was
irrelevant to the dispute at trial because he “never claimed
the ’485 patent was a ‘pioneering’ invention,” that he
“invented the zero-fleet angle winch,” or “that the prior art
consisted solely of ‘sand bag’ counterweights and pulleys.”
(Trial Tr. 85:17-90:4; Pl.’s New Trial Opp’n at 17.) Rather,
Plaintiff points to several instances in which testimony
revealed advances in the winch design prior to the ’485
Patent. (Pl.’s New Trial Opp’n at 17.) Moreover, prior art
is primarily relevant to a claim that questions the validity
of the patent, which Defendants refused to challenge after
it was expressly upheld by the PTAB. (Withdrawal Stip.)

52a
Appendix B
Finally, under Rule 61, “the court must disregard
all errors and defects that do not affect any party’s
substantial rights.” Fed. R. Civ. P. 61. Accordingly, “[a]n
erroneous evidentiary ruling warrants a new trial only
when a ‘substantial right of a party is affected,’ as when ‘a
jury’s judgment would be swayed in a material fashion by
the error.’” Lore v. City of Syracuse, 670 F.3d 127, 155 (2d
Cir. 2012) (citation omitted). Here, Defendants’ withdrew
their invalidity defense and even represented to the court
in their motions in limine that this withdrawal, as well
as the PTAB’s decision and prior art discussed therein
were “irrelevant” to the issues presented at trial. (See
generally Defs.’ Mots. In Limine.) This judicial admission
is binding on Defendants and thereby relieves this Court
of the burden of further addressing it here. See Hoodho v.
Holder, 558 F.3d 184, 191 (2d Cir. 2009) (“Facts admitted
by a party are judicial admissions that bind th[at] [party]
throughout th[e] litigation.”). In light of this judicial
admission, Defendants cannot now allege that the prior
art was integral to their defense and that exclusion of it
from evidence was “highly prejudicial.”
Accordingly, Defendants were not unduly prejudiced
by the exclusion of the ’485 Patent’s prior art at trial.
C. 	The Jury’s Damages Award Was Not Excessive
& Conditional Remittitur Is Denied.
“Where there is no particular discernable error, [the
courts] have generally held that a jury’s damage award
may not be set aside as excessive unless the award is so
high as to shock the judicial conscience and constitute a

53a
Appendix B
denial of justice.” Lore, 670 F.3d at 177 (citation omitted).
Under the Patent Act, a prevailing patent owner is entitled
to damages “adequate to compensate for the infringement,
but in no event less than a reasonable royalty for the
use made of the invention by the infringer.” 35 U.S.C.
§ 284. The Federal Circuit has held that “[d]eciding how
much to award as damages is not an exact science, and
the methodology of assessing and computing damages is
committed to the sound discretion of the district court.”
State Indus., Inc. v. Mor-Flo Indus., Inc., 883 F.2d
1573, 1576-1577 (Fed. Cir. 1989). Therefore, a party that
challenges a damages award “must show that ‘the district
court abused its discretion by basing its award on clearly
erroneous factual findings, legal error, or a manifest
error of judgment.’” Id. at 1577 (quoting DataScope Corp.
v. SMEC, Inc., 879 F.2d 820 (Fed. Cir. 1989) (emphasis
added)). In conducting this analysis, “[a]ny doubt[s] about
the amount of the damages must be resolved against the
infringer.” Id.
Defendants allege that Plaintiff’s damages expert,
Joel Wacek, made three critical errors in his analysis that
resulted in an over-inflated per-unit royalty rate: (1) “he
did not apportion the royalties in the license agreements
to the value of [the ’485] Patent,” (2) “he did not account for
the fact that the license agreements were exclusive,” and
(3) “he miscalculated the royalty rate in the settlements
by failing to take into account royalty-free units that
were part of the lump sum payments.” (Defs.’ New Trial
Mem. at 23.)

54a
Appendix B
A critical deficiency of these arguments is that they
pertain to the methodology that Wacek used to calculate
the royalty rate, which should have been resolved “under
the framework of the Federal Rules of Evidence and
through a challenge under Daubert v. Merrell Dow
Pharmaceutical, Inc., 509 U.S. 579, 113 S. Ct. 2786, 125
L. Ed. 2d 469 (1993).” Versata Software, Inc. v. SAP
America, Inc., 717 F.3d 1255, 1264 (Fed. Cir. 2013).
Defendants cannot raise this issue now “under the guise
of sufficiency of the evidence.” Id.
Even assuming that this inquiry is not precluded
by Daubert, Plaintiff accurately argues that Wacek
addressed in his testimony each of Defendants’ allegations.
First, regarding apportionment, Wacek “concluded that
the value in each agreement resided with the patent
rights.” (Pl.’s New Trial Opp’n at 26.) As acknowledged
by Defendants’ expert, Dawn Hall, this conclusion is
not arbitrary as “trade secrets for mechanical designs
can be reverse-engineered once sold—and thus, as with
many industries, attribution of value resided with the ’485
Patent.” (Id.; Trial Tr. 655:6-8.) Second, regarding the
exclusivity of the license agreements, to say that Wacek
did not consider exclusivity at all is directly contradicted
by his testimony:
I also considered that cer tain of these
agreements, these manufacturers received
exclusive rights, or the sole rights to use the
patent, versus non-exclusive, where others could
use it. That’s important because, in general, all
things equal, an exclusive agreement may have

55a
Appendix B
higher royalties than a non-exclusive agreement
. . . I didn’t see a big premium for exclusivity,
and most of the agreements I’m focusing on
were for non-exclusive rights anyways.
(Trial Tr. 326:20-327:6.) Finally, as to the royalty-free
units, Defendants do not acknowledge Wacek’s direct
testimony explicitly saying that he took into account the
royalty-free credits when calculating the rates for the
licenses. (Trial Tr. 316:14-317:21, 321:5-324:10; Pl.’s New
Trial Opp’n at 27-28.)
Accordingly, the jury’s award of damages in this case
does not “shock the judicial” conscience because it was
within the range proffered by Wacek during trial and is
supported by the evidence presented at trial. 3 (Trial Tr.
354:7-12.)
To be sure, both Defendants’ and Plaintiff’s experts
presented differing opinions on the proper calculation
for damages, and “when there is conflicting testimony
at trial, and the evidence overall does not make only one
finding on the point reasonable, the jury is permitted to
make credibility determinations and believe the witness
it considers more trustworthy.” MobileMedia Ideas LLC
v. Apple Inc., 780 F.3d 1159, 1168 (Fed. Cir. 2015) (citing
Kinetic Concepts, Inc. v. Smith & Nephew, Inc., 688 F.3d
3. Plaintiff also notes where Wacek addressed each license
agreement and royalty rate that Defendants now dispute. (Trial
Tr. 307:15-310:9 (CRS); 310:11-313:3, 368:10-12, 371:13-18 (Clancy);
313:21-314:23 (Protech); 315:3-318:21 (Stage Tech); 318:25-324:15,
383:22-384:1 (ETC); Pl.’s New Trial Opp’n at 24-25.)

56a
Appendix B
1342, 1362 (Fed. Cir. 2012)). It is not this Court’s function
to “second guess or reevaluate the weight given to that
evidence.” Id. (citing Comark Commc’ns v. Harris Corp.,
156 F.3d 1182, 1192 (Fed. Cir. 1998)). The jury in this case
was presented with testimony from both expert witnesses
Wacek and Hall, and reached a reasonable conclusion
based on that evidence that cannot now be challenged
after trial.
a. 	Conditional Remittitur is Denied.
This Court has the power to enter a conditional order
of remittitur where
(1) the court can identify an error that caused
the jury to include in the verdict a quantifiable
amount that should be stricken, . . . and (2) more
generally, where the award is “intrinsically
excessive” in the sense of being greater than the
amount a reasonable jury could have awarded,
although the surplus cannot be ascribed to a
particular, quantifiable error.
Kirsch, 148 F.3d at 165. Here, because the jury’s damages
award fell within the range proffered by Plaintiff’s
expert, there is no basis to find that the award included
a quantifiable amount that should be stricken or that it
was “intrinsically excessive.” (Trial Tr. 354:7-12.) Where
the jury has heard both experts’ testimony and reached
a conclusion based on the evidence, it would be improper
to impose a conditional remittitur contrary to the jury’s
verdict. Comark Commc’ns, 156 F.3d at 1192 (Fed. Cir.
1998).

57a
Appendix B
D. 	The Court Properly Instructed the Jury on the
Doctrine of Equivalents.
Defendants suggest that Judge Sweet “erred in
striking the charge relating to vitiation” and improperly
stated “vitiation was not at issue” at trial. (Defs.’ New
Trial Mem. at 29; Trial Tr. 732:18-734:23.) As discussed at
length in Section III (A), supra, Defendants’ vitiation claim
fails. Indeed, Defendants proposed the jury instruction:
“something that is the opposite of an equivalent, cannot
infringe under the doctrine of equivalents.” (Defs.’ New
Trial Mem. at 29.) But that is exactly the kind of “binary
choice” the Federal Circuit cautions against. Deere & Co.,
703 F.3d at 1356. Therefore, Judge Sweet correctly noted
that lilt seems to me that the issue is fairly presented as to
whether they are equivalents, and to say opposite, I don’t
know that opposite really works here.” (Trial Tr. 734:17-20.)
As such, Judge Sweet properly excluded this instruction.
Accordingly, upon reviewing the underlying evidence
and evaluating whether the verdict was “seriously
erroneous” or a “miscarriage of justice,” and finding
neither, Defendants’ motion for a new trial is DENIED.
V. PLAINTIFF’S MOTION FOR JUDGEMENT
AS A MATTER OF LAW IS DENIED
Plaintiff’s renewed motion for judgment as a matter
of law4 argues that “the hub extension in the Vortek
4. Plaintiff first moved for judgment as a matter of law during
trial on December 17, 2018. (Trial Trans. 686:18-689:25). Judge Sweet
heard oral argument that same day and denied the motion without
prejudice. (Trial Trans. 691:7).

58a
Appendix B
literally satisfies the ‘hollow hub’ limitation (e) from
[C]laim 27 [of the ’485 Patent].”5 (Pl.’s Mem. of Law in Supp.
of its Renewed Mot. Pursuant to FRCP 50(b) for J. as a
Matter of Law (“Pl.’s JMOL Mem.”), ECF No. 343, at 1
(emphasis added).) Claim 27(e) states, “said drum having
at a first end a hollow hub rotatably journalled at the first
end portion of the base member.” (Bressler Decl., Ex. 1
(The ’485 Patent) at col. 15,1.44-45.) Judge Sweet defined
“hollow hub” as “a portion of the drum end caps within
an elongated opening to allow passage of the elongated
screw.” (Claim Constr. Op. at 14.)
Plaintiff argues that the jury misinterpreted the
“hollow hub” limitation “as requiring that the hub be
formed as a unitary extension of the end cap.” (Pl.’s
JMOL Mem. at 1.) According to Plaintiff, the correct
understanding of the “hollow hub” limitation is that
“’a portion’ includes functionally equivalent structures
that are connected together to form a single functional
arrangement.” (Id. (emphasis added).) According to
Plaintiff, because this is the exact construction of the
Vortek, judgment should be entered as a matter of law in
its favor on this issue. (Id. at 1-2.)

5. Plaintiff also argues that if this Court grants its renewed
motion for judgment as a matter of law that the Vortek literally
includes Claim 27(e), “this Court should similarly grant [their]
renewed motion as to [Claim 27(h)]” because “the finding of
equivalence of the ‘hollow hub’ impacts the determination of the
literal inclusion of limitation (h) in the Vortek.” (Pl.’s JMOL. Mem.
at 1 n. 1.)

59a
Appendix B
As previously indicated, however, a party bringing
a motion for judgment as a matter of law must meet a
“particularly heavy burden where, as here, the jury has
deliberated in the case and actually returned its verdict
in favor of the non-movant.” Eastman Kodak Co., 4 F.
Supp. 3d at 577 (citing Carroll, 712 F.3d at 651). Moreover,
it is well established in this Circuit that when evaluating
a motion under Rule 50, a court must “view the evidence
‘in the light most favorable’ to the non-moving party and
give [the non-moving party] ‘the benefit of all reasonable
inferences that the jury might have drawn in [its] favor
from the evidence.’” Vioni v. Providence Inv. Mgmt.,
LLC, 750 F. App’x 29, 32 (2d Cir. 2018) (quoting Tolbert
v. Queens Coll., 242 F.3d 58, 70 (2d Cir. 2001)).
In this case, the jury reasonably found that the Vortek
had an equivalent element to Claim 27(e), but declined to
find that it “literally include[d] the hollow hub limitation.”
(Trial Tr. 841:1-10.) Accordingly, upon evaluating the
evidence, this Court finds that the jury did not err in
concluding that the Vortek had an equivalent, but not
literal, part to Claim 27(e).
A. 	The Vortek Does Not Literally Include A
“Hollow Hub.”
The Vortek is made up of a “13-inch long hub extension
(“hub extension”) [highlighted in green] that extends out
from the end cap and has an 11-inch bore that is sized to
receive a 10.75-inch long screw [highlighted in red].” (Pl.’s
JMOL Mem. at 2 (alterations in original).)

60a
Appendix B

(Id. at 2-3.)
Plainti ff contends that the only difference between
the Vortek and the ’485 Patent is that “the Vortek hub
extension and end cap are two separate pieces while the
’485 [P]atent discloses the end cap with its hollow hub as
a single piece.” (Id. at 3 (emphasis added).) in support
of its argument, Plaintiff maintains that (1) defendants’
expert did not address the connection between the
Vortek’s hub extension and end cap, which “effectively
bonds the end cap to the hub extension,” thereby creating
a “single piece,” (id. at 5; see also trial tr. 530:4-9); and
(2) the Vortek’s “hollow hub” matches the court’s claim
construction because Judge Sweet defi ned “hollow hub”
as “a portion of the drum end caps within an elongated
opening to allow passage of the elongated screw” (Pl.’s
JMoL Mem. at 4).
Regardi ng Plaintiff’s fi rst argument, Defendants
properly indicate that Dr. Garris testified at trial that “the
set screws simply position the shaft relative to the drum,
but do not make the Vortek shaft a portion of the drum end
cap because the end cap and the shaft are ‘separate and
independent components.’” (defs.’ opp’n to Pl.’s renewed

61a
Appendix B
Mot. Pursuant to FRCP 50(b) for J. as a Matter of Law
(“Defs.’ JMOL Opp’n”), ECF No. 369, at 8; Trial Tr. 478:510; 608:3-22.) Dr. Garris further testified that the “piece
of the shaft that [Plaintiff] calls the hollow hub is not ‘a
portion’ of the end cap, it is a shaft that runs through the
end cap.” (Defs.’ JMOL Opp’n at 6; Trial Tr. 477:25-478:10.)
These determinations led Dr. Garris to conclude that “the
end of the Vortek shaft does not literally meet the Court’s
definition of the ‘hollow hub.’” (Defs.’ JMOL Opp’n at 6.)
Moreover, Defendants argue that “the bore hole does
not extend to the drum [and therefore] the shaft is not
hollow and cannot be a ‘hollow hub,’ as found by the jury.”
(Defs,’ JMOL Opp’n at 6.) This is supported by the trial
transcript where Plaintiff admitted that the screw “does
not reach the tubular portion of the drum” because the
shaft is in the “way.” (Trial Tr. 226:1-10.) Accordingly,
Defendants presented ample evidence for the jury to
consider when determining whether the Vortek had an
equivalent or literal corresponding element to Claim 27(e).
As to Plaintiff’s second claim construction argument,
Defendants accurately point out that Plaintiff is
attempting to “re-write the Court’s claim construction”
by arguing that “a portion” includes “functionally
equivalent structures that are connected together to form
a single functional arrangement.” (Defs.’ JMOL Opp’n
at 8; Pl.’s JMOL Mem. at 1.) Indeed, this construction
would improperly conflate the definition of “equivalent”
and “literal,” contradicting both Judge Sweet’s claim

62a
Appendix B
construction order and the jury’s verdict in this case.6
As Defendants argue, if Plaintiff “wanted a different
[construction], such as a construction that the ‘hollow
hub’ and drum end cap can be separate components, it
should have sought reconsideration of the [c]ourt’s claim
construction order.” (Defs.’ JMOL Opp’n at 7.)
Where a jury has deliberated and returned a verdict
in favor of the non-moving party, as the jury did in this
case, this Court may set aside such a verdict only if there
is “such a complete absence of evidence supporting the
verdict that the jury’s findings could only have been the
result of sheer surmise and conjecture, or the evidence in
favor of the movant is so overwhelming that reasonable and
fair minded persons could not arrive at a verdict against
it.” Carroll v. Cty. of Monroe, 712 F.3d 649, 651 (2d Cir.
2013) (quoting Cash v. Cty. of Erie, 654 F.3d 324, 333 (2d
Cir. 2011)). That is not the case here. As already indicated,
Defendants presented ample evidence at trial to support
their assertion that the Vortek’s end cap did not literally
correspond to the ’485 Patent Winch’s hollow hub. (Trial
Tr. 478:5-10; 608:3-22; Defs.’ JMOL Opp’n.) Moreover, the
jury had the opportunity to weigh the evidence presented
6. Defendants also allege that Plaintiff’s motion for judgment as
a matter of law is procedurally defective because “in order to literally
infringe, each element of the claim must be literally found in the
Vortek.” (Defs.’ JMOL Opp’n at 2 (emphasis added) (citing Intellicall,
Inc. v. Phonometrics, 952 F.2d 1384, 1389 (Fed. Cir. 1992).) But
Defendants misstate the relevant law. In Intellical, the Federal
Circuit held that “infringement requires that every limitation of
a claim be met literally or by a substantial equivalent.” 952 F.2d at
1389 (emphasis added).

63a
Appendix B
by both parties, and in doing so reached the reasonable
conclusion that the Vortek contained an equivalent
corresponding element to the ’485 Patent Winch’s hollow
hub, rather than a literal one. (Trial Tr. 841:1-10.)
Accordingly, Plaintiff ’s motion for judgment as
a matter of law as to Claim 27(e) and Claim 27(h) is
DENIED.
VI. PLAINTIFF’S MOTION FOR ATTORNEYS
FEES IS DENIED
Plaintiff’s motion for attorney’s fees alleges that
“Daktronics’ vexatious litigation strategy clearly presents
the factual bases required to find this case exceptional”
for the purposes of awarding such fees under the Patent
Act, 35 U.S.C. § 285. (Pl.’s Mem. of Law in Supp. of Plt.’s
Mot. for Attorneys’ Fees Pursuant to 35 U.S.C. § 285
(“Attorney’s Fees Mem.”), ECF No. 354, at 1.) According
to Plaintiff, Defendants filed meritless motions, repeatedly
threatened Plaintiff’s counsel with sanctions, and engaged
in discovery misconduct, resulting in a four-year delay
of trial. (Id.) But the totality of the circumstances here
do not support a finding that Defendants’ behavior
was so unreasonable vis-à-vis its litigating position
that it “stands out” as a particularly egregious case of
attorney misconduct. Octane Fitness, 572 U.S. at 554
(“an ‘exceptional’ case is simply one that stands out from
others with respect to the substantive strength of a party’s
litigating position (considering both the governing law and
the facts of the case) or the unreasonable manner in which
the case was litigated.”). Accordingly, Plaintiff’s motion
for attorneys fees is DENIED.

64a
Appendix B
VII. PLAINTIFF’S MOTION TO AMEND
THE JUDGMENT IS GRANTED
The Patent Act explicitly states that a prevailing
patentee in a patent infringement action is entitled to
compensation that is “in no event less than a reasonable
royalty for the use made of the invention by the infringer,
together with interest and costs as fixed by the Court.” 35
U.S.C. § 284 (emphasis added). The Supreme Court and
the Federal Circuit have therefore held that, in patent
cases, “prejudgment interest should ordinarily be awarded
absent some justification for withholding such an award,
[and] a decision to award prejudgment interest will only be
set aside if it constitutes an abuse of discretion.” General
Motors Corp. v. Devex Corp., 461 U.S. 648, 657, 103 S.
Ct. 2058, 76 L. Ed. 2d 211 (1983); see also Laitram Corp
v. Cambridge Wire Cloth Co., 785 F.2d 292, 295-96 (Fed.
Cir. 1986) (“CWC failed to provide this court or the trial
court with any circumstances which excuse prejudgment
interest on awarded damages. Consequently, we find that
the magistrate abused his discretion by failing to award
prejudgment interest.”). Because Plaintiff prevailed at trial,
an award of prejudgment interest is appropriate here.
Prejudgment interest should be awarded under 35
U.S.C. § 284 at a rate to be determined by the trier of fact.
See Studiengesellschaft Kohle v. Dart Industries, Inc., 862
F.2d 1564, 1579-80 (Fed.Cir.1988). Plaintiff seeks an award
of prejudgment interest at the New York statutory rate of
9%. N.Y.C.P.LR. § 5004 (“Interest shall be at the rate of nine
per centum per annum, except where otherwise provided
by statute.”). The source of law underlying a party’s claims

65a
Appendix B
determines the applicable prejudgment interest rate. Gust,
Inc. v. AlphaCap Ventures, LLC, No. 15 Civ. 192 (DLC),
2017 U.S. Dist. LEXIS 104411, 2017 WL 2875642, at *7
(S.D.N.Y. July 6, 2017) (“[C]laims that arise out of federal
law are governed by federal rules, claims arising out of state
law are governed by state rules.” quoting In re Palermo,
739 F.3d 99, 107 (2d Cir. 2014)). Plaintiff’s claims arise out of
federal law, but there is no applicable federal statute or rule
establishing a prejudgment interest rate. See id. Therefore,
courts in this District award prejudgment interest in patent
cases at the New York statutory rate of 9% per annum. See
e.g. Regeneron Pharms, Inc. v. Merus N.V., No. 14 Civ. 1650
(KBF), 2018 U.S. Dist. LEXIS 115661, at *20 (S.D.N.Y. Jun.
25, 2018); Gust, 2017 U.S. Dist. LEXIS 104411, 2017 WL
2875642 at *7; Variable-Parameter Fixture Dev. Corp. v.
Morpheus Lights, No. 90 Civ. 5593 (DC), 1997 U.S. Dist.
LEXIS 4645, 1997 WL 177886, at *2 n.1 (S.D.N.Y. Apr. 14,
1997).
The jury determined that the relevant time period
for damages purposes is from June 26, 2009, the date of
Defendants’ first infringing sale of the Vortek, to January
2, 2019, the date of the judgment. (Decl. of Joel Wacek in
Supp. Of Olaf Sööt Design, LLC’s Mot. For Prejudgment
Interest (“Wacek Decl.”), ECF No. 340, ¶ 2.) Applying a 9%
interest rate to the annual unit sales of the Vortek during
the relevant time period yields a prejudgment award in the
amount of $765,328. (Id. ¶¶ 3-4.) Accordingly, Plaintiff is
entitled to this amount on top of the jury’s damages award
of $1,072,800, for a total recovery of $1,838,158.
Plaintiff also seeks post-judgment interest pursuant
to 28 U.S.C. § 1961(a), which states that “[i]nterest shall be

66a
Appendix B
allowed on any money judgment in a civil case recovered
in a district court.” Defendants do not object to Plaintiff’s
request for post-judgment interest. (Daktronics’ Opp’n to
OSD’s Mot. To Am. the J., ECF No. 373, at 11.) Accordingly,
Plaintiff’s request for an award of post-judgment interest
in accordance with this District’s fee schedule is granted
in full.
VIII. CONCLUSION
Defendants’ motions for judgment as a matter of law
and for a new trial, ECF Nos. 329 and 346, are DENIED.7
Plaintiff’s motions for judgment as a matter of law and
for attorney’s fees, ECF Nos. 342 and 353, are DENIED.
Plaintiff’s motion to amend the judgment to include
prejudgment and postjudgment interest, ECF No. 338,
is GRANTED.
The Clerk of the Court is instructed to close the
motions.
Dated: New York, New York
August 27, 2019
SO ORDERED.
/s/ George B. Daniels
GEORGE B. DANIELS
United States District Judge
7. Defendants’ motion to strike portions of Plaintiff’s oral
argument PowerPoint presentation, ECF No. 405, is also DENIED
as moot. This Court did not rely on the contents of that presentation
to decide Defendants’ motion for a new trial.

67a
Appendix Cof the UNITED
Appendix C — opinion
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF NEW YORK, FILED
October 26, 2016
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF NEW YORK
15 Civ. 5024
OLAF SÖÖT DESIGN, LLC,
Plaintiff,
-againstDAKTRONICS, INC. and
DAKTRONICS HOIST, INC.,
Defendants.
October 26, 2016, Decided
October 26, 2016, Filed
Sweet, D.J.
Plaintiff Olaf Sööt Design, LLC (“Olaf Sööt” or
“Plaintiff”) has moved for claim construction on 12
terms appearing in U.S. Patent No. 6,520,485 (“the ’485
Patent”). Defendants Daktronics, Inc. and Daktronics
Hoist, Inc. (“Daktronics” or “Defendants”) has moved
for summary judgment of non-infringement on the ’485
Patent. Based on the conclusions set forth below and the
claim constructions determined by the Court, the motion
for summary judgment on non-infringement is denied.

68a
Appendix C
Prior Proceedings
Plaintiff brought this action for patent infringement
on June 26, 2015. The ’485 Patent is for a stage scenery
winch system that helps to move large scenes quickly
and efficiently replacing the work that had been done by
counterweight sets.
The instant motion for summary judgment on noninfringement was heard and marked fully submitted on
June 8, 2016. The claim construction motion was heard
and marked fully submitted on September 15, 2016.
The Applicable Standard
Summary judgment is appropriate only where “there
is no genuine issue as to any material fact and ... the
moving party is entitled to a judgment as a matter of
law.” Fed. R. Civ. P. 56(c). A dispute is “genuine” if “the
evidence is such that a reasonable jury could return a
verdict for the nonmoving party.” Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 248, 106 S. Ct. 2505, 91 L. Ed.
2d 202 (1986). The relevant inquiry on application for
summary judgment is “whether the evidence presents a
sufficient disagreement to require submission to a jury
or whether it is so one-sided that one party must prevail
as a matter of law.” Id. at 251-52.
A court is not charged with weighing the evidence and
determining its truth, but with determining whether there
is a genuine issue for trial. Westinghouse Elec. Corp. v.
N.Y. City Transit Auth., 735 F. Supp. 1205, 1212 (S.D.N.Y.

69a
Appendix C
1990) (quoting Anderson, 477 U.S. at 249). “[T]he mere
existence of some alleged factual dispute between the
parties will not defeat an otherwise properly supported
motion for summary judgment; the requirement is that
there be no genuine issue of material fact.” Anderson, 477
U.S. at 247-48 (emphasis in original).
The Supreme Court has held that claim construction
is a matter of law to be determined by the court in order
to assist the jury with questions of patent infringement.
Markman v. Westview Instruments, 517 U.S. 370, 372,
116 S. Ct. 1384, 134 L. Ed. 2d 577 (1996). There are two
steps to an infringement claim on summary judgment.
The first step is determining “the meaning and scope of
the patent claims asserted to be infringed” and the second
step is “comparing the properly construed claims to the
device accused of infringing.” Markman v. Westview
Instruments, 52 F.3d 967, 976 (Fed. Cir. 1995).
Claim Construction Standard
Claim terms “are generally given their ordinary
and customary meaning” as understood by “a person of
ordinary skill in the art at the time of invention.” Phillips
v. AWH Corp., 415 F.3d 1303, 1312-13 (Fed. Cir. 2005) (en
banc) (citations and internal quotation marks omitted).
The court reads a claim term “not only in the context of
the particular claim in which the disputed term appears,
but in the context of the entire patent, including the
specification.” Id. at 1313; see also, Williamson ex rel.
At Home Bondholders’ Liquidating Trust v. Verizon
Communications Inc., Nos. 11 Civ. 4948(LTS)(HBP), 13

70a
Appendix C
Civ. 0645(LTS)(HBP), 2013 U.S. Dist. LEXIS 114261, 2013
WL 4083267, at *l-2 (Aug. 12, 2013).
The patent specification is “always highly relevant
to the claim construction analysis” has been described
as “a dictionary when it expressly defines terms used in
the claims” and “the single best guide to the meaning of
a disputed term.” Vitronics Corp. v. Conceptronic, Inc.,
90 F.3d 1576, 1582 (Fed. Cir. 1996). It is a “statutory
requirement that the specification describe the claimed
invention in ‘full, clear, concise, and exact terms.’” Phillips,
415 F.3d at 1316 (quoting 35 U.S.C. § 112).
“However, preferred embodiments and written
descriptions in the specification should not be used to
limit the scope of claims.” Williamson ex rel. At Home
Bondholders’ Liquidating Trust, 2013 U.S. Dist. LEXIS
114261, 2013 WL 4083267, at *2; see also, Phillips, 415
F.3d at 1320 (“reading a limitation from the written
description into the claims” is “one of the cardinal sins of
patent law”) (quoting SciMed Life Sys., Inc. v. Advanced
Cardiovascular Sys., Inc., 242 F.3d 1337, 1340 (Fed. Cir.
2001)). “[I]t is important to keep in mind that the purposes
of the specification are to teach and enable those of skill
in the art to make and use the invention,” not to define the
limits of a claim term. Phillips, 415 F.3d at 1323.
Agreed Upon Constructions
The parties agreed to the constructions for Terms
1 and 2 and therefore the parties’ mutual constructions
are adopted.

71a
Appendix C
Disputed Constructions
Term 3: Base Member
The parties dispute the construction for Term 3,
the base member. Plaintiff’s proposed construction is
“one or more components of the winch assembly that are
connected to the carriage to support and position the
drum assembly.” Defendants’ proposed construction is “a
component of the winch that is separate from the carriage
and supports the drum.” There are three disputes in these
competing constructions. The first is whether there can
be more than one component in the base member; second,
whether the base member is connected to the carriage
or separate from the carriage; third, whether the base
member supports the drum.
First, the parties dispute whether there can be
more than one component in the base member because
the allegedly infringing Vortek product produced by
the Defendants is constructed with two components
that collectively comprise the base member. If there can
only be one base member, then the Vortek product is not
infringing on Plaintiff’s patent.
The Federal Circuit instructs that when interpreting a
claim, “First, we look to the words of the claims themselves
. . . to define the scope of the patented invention.” Vitronics
Corp. v. Conceptronic, Inc., 90 F.3d 1576, 1582 (Fed. Cir.
1996). In the ’485 Patent, Claims 21 and 27 both define base
member as “a base member having first and second end
portions.” This language indicates that there is only one

72a
Appendix C
base member. The key question is whether there can be
more than one component that collectively comprises the
base member. The claim lists two required components of
the base member: first and second end portions. Therefore
there are at least two components that comprise the base
member and the base member can be comprised of two
or more components.
Second, the parties dispute whether the base member
is connected to the carriage or separate from the carriage.
Both parties are correct. This issue is not addressed in the
claim, but is detailed in the drawings and specifications.
When the answer is not clear from the text of the claim,
“second, it is always necessary to review the specification”
which “acts as a dictionary when it expressly defines
terms used in the claims or when it defines terms by
implication.” Vitronics, 90 F.3d at 1582. Further, “Claims
must be read in view of the specification, of which they are
a part.” Markman v. Westview Instruments, Inc., 52 F.3d
967, 979 (Fed. Cir. 1995) (en banc), aff’d, 517 U.S. 370, 116
S.Ct. 1384, 134 L. Ed. 2d 577 (1996). The specification “is
the single best guide to the meaning of a disputed term.”
Vitronics, 90 F.3d at 1582.
Here, the specifications in Figures 1, 2, 7, and 8 all
show that the base member is separate from the carriage
and is connected to the carriage by slideable linear
bearings. Both parties’ constructions will be adopted.
Third, the parties dispute whether the base member
supports the drum. The claim states that the drum has “a
longitudinal axis rotatably mounted on the base member.”

73a
Appendix C
All of the drawings show that the drum is mounted on
the base member. Plaintiff advances an interpretation
of the term that finds that the base is “connected to the
carriage to support and position the drum assembly.”
Therefore, it appears that the parties agree that in some
way since the drum is mounted to the base member and
therefore that the base member supports the drum.
However, Defendants’ construction adheres more closely
to the only portion of the specification that discusses this
issue in which the invention is summarized as saying that
“the drum (and its support base).” (’485 Patent at 2:2.)
Therefore, the base member supports the base.
The adopted construction is: “one or more components
of the winch, including first and second end portions,
which are connected to and separate from the carriage,
supporting the drum.”
Term 4: Hollow Drum
The parties dispute the construction for Term 4, the
hollow drum. Plaintiff’s proposed construction is “An
elongated cylindrically shaped assembly with an internal
cavity and an external surface to store one or more cables
that can be unwound by rotational motion.” Defendants
argue that no construction is necessary.
Claim construction “is not an obligatory exercise
in redundancy.” U.S. Surgical Corp. v. Ethicon, Inc.,
103 F.3d 1554, 1568 (Fed. Cir. 1997). Instead, “[c]laim
construction is a matter of resolution of disputed meanings
and technical scope, to clarify and when necessary to

74a
Appendix C
explain what the patentee covered by the claims, for use
in the determination of infringement.” Id. Here, Plaintiff’s
proposed construction is more difficult to understand
than the term itself and will only confuse the jury. There
is no need to add that the hollow drum is an “elongated
cylindrical assembly with an internal cavity.” There is also
no need to confuse the jury with the difference between
the drum and the drum assembly, which are different
terms with different meanings. It does not help to explain
the language that is already in the term.
The adopted construction is: “hollow drum.”
Term 5: An elongated hollow drum . . . rotatably
mounted on the base member and a cable for
simultaneously winding and unwinding the cable
on or off the drum grooves when the drum is rotated
The parties dispute the construction for Term
5, describing the hollow drum. Plaintiff’s proposed
construction is “a hollow drum supported by the base
member with a cable in which the cable winds and unwinds
on or off of the drum grooves when the drum is rotated.”
Defendants argue that no construction is necessary.
While these two constructions are similar, Plaintiff’s
construction does not add any additional explanation to
the claim term. It eliminates certain easily understood
terms such as that the drum must be “elongated.”
The adopted construction is: “an elongated hollow
drum . . . rotatably mounted on the base member and a

75a
Appendix C
cable for simultaneously winding and unwinding the cable
on or off the drum grooves when the drum is rotated.”
Term 6: First means for slideably mounting the base
member to the carriage
The parties agree that this is a means-plus-function
element. However, their constructions for the means-plusfunction elements diverge on several key points. Plaintiff’s
proposed construction is “a means clause: the supporting
structure is a linear bearing and all equivalents thereof
for the function of connecting the base member to the
carriage and providing relative linear motion between
the carriage and the base member/drum.” Defendants’
proposed construction is “a means-plus-function limitation
pursuant to § 112, ¶ 6. Function: slidably mounting the
base member to the carriage. Structure: two slides 45
that (i) are rigidly fastened to the frame of the carriage
and (ii) engage linear bearings 35A that are mounted into
the top portions of the base member’s first and second
end portions.”
The function in a means-plus-function element must
be explicitly recited in the claim. JVW Enterprises, Inc.
v. Interact Accessories, Inc., 424 F.3d 1324, 1331 (Fed.
Cir. 2005). The role of the Court is to “determine what
structure, if any, disclosed in the specification corresponds
to the claimed function” and the specifications “must
clearly associate the structure with the performance of
the function.” Id.

76a
Appendix C
Defendants’ proposed function restates the exact
language of the claim. Plaintiff’s proposed language only
helps to further explain the claim function language.
Therefore, the function will be “slideably mounting the
base member to the carriage providing relative linear
motion between the carriage and the base member.”
The issue is how to define the structure. Plaintiff
advances that there can only be one linear bearing,
which has several embodiments and that is how the base
member slides with respect to the carriage. However,
this interpretation does not reflect the language in
the specification and the drawings. The specification
and drawings demonstrate that the two slides 45 and
linear bearings 35A and 35B are necessary for sliding
to function. There are multiple embodiments and not all
require two 35As and 35Bs, however all embodiments
include two slides 45 and more than one 35A and/or 35B.
The specifications and the drawings collectively
define that the carriage is slideably connected to the base
member “through slides 45, which are rigidly fashioned
to the frame. The slides engage linear bearings 35A and
35B, mounted into the top portion of the base 30 vertical
members 31 and 32.” ’485 Patent 5:47-51. Figure 3 of the
specifications shows how linear bearings 35A and 35B
could both be used to engage with the slide 45. Even if
Figure 1 only has two 35As and Figure 2 has two 35Bs,
there are two slides and at least two 35A/B linear bearings
in all embodiments.

77a
Appendix C
The adopted construction is: “the structure is two
slides 45 that are mounted to the carriage and engage
linear bearings, which can be a combination of 35A and
35B that are mounted to the top of the base member’s first
and second end portions that function to slideably mount
the base member to the carriage providing relative linear
motion between the carriage and the base member.”
Term 7: Hollow Hub
The parties have similar constructions for this term,
but dispute whether the hollow hub is a drum end cap
or a portion of a drum end cap. Different areas of the
specification refer to the hollow hub as either the “end
cap 14 hub portion” or “the brake end cap 14.” (Compare,
’485 Patent 8:2-14 and 5:7-17.) The parties can each cite
to these conflicting specifications.
The specification notes that the “brake end cap 14
elongated hub, which hub is hollow so that the screw 51 can
pass, via the hollow hub, inside the drum 11, which is also
hollow.” (’485 Patent 4:37-41.) This language demonstrates
that the hub is a portion of the brake end cap and not the
entire end cap.
The adopted construction is: “a portion of the drum
end cap with an elongated opening to allow passage of the
elongated screw.”

78a
Appendix C
Term 8: A hollow hub rotatably journalled at the
first end portion of the base member
Here the parties dispute whether this claim term
requires construction. While the claim term is clear,
Plaintiff’s construction provides additional detail and
clarity for the jury.
The adopted construction is: “a portion of the drum
end cap with an elongated opening located at the first
end portion of the base member to allow passage of the
elongated screw.”
Term 9: Second means for rotating the drum relative
to the base member such that the base member with
its drum and the carriage can move with respect to
each other
The parties agree that this is a means-plus-function
element. However, their constructions for the means-plusfunction elements differ. Again, the parties agree on the
function, “rotating the drum relative to the base member
such that the base member with its drum and the carriage
can move with respect to each other.”
However, the parties dispute the structure necessary
for this function. First, the parties dispute what type of
screw is needed to rotate the drum. Both embodiments
will be permitted, either a power or ACME screw. Next,
the parties agree that a motor 37 is required. The base
member is included in the claim, so it will also be included
in the construction. The slides and linear bearings will not

79a
Appendix C
be included in the construction for this term as they were
included in Term 6 (the first means) and are not necessary
for the function of the second means of rotation and lateral
movement of the drum.
The adopted construction is: “the structure is a motor
37, power or ACME screw, drum, carriage and base
member that function to rotate the drum relative to the
base member such that the base member with its drum
and the carriage can move with respect to each other.”
Term 10: Elongated screw
The parties dispute whether construction is needed
for this term. Plaintiff’s proposed construction to explain
that this is a power screw with “a length that permits
the drum to wind (and store) and unwind the cable or
cables synchronized with lateral movement. However,
this construction only adds confusion to a simple term. An
elongated screw is a long screw and the parties can explain
its function to the jury without the need for additional
construction of this term.
The adopted construction is: “elongated screw.”
Term 11: An elongated screw having a first end nonrotatably mounted to the carriage
The parties also dispute whether construction is
needed for this term. Plaintiff’s proposed construction
adds language about the drum winding and unwinding
the cables. This language is not needed to adequately

80a
Appendix C
understand the claim language and will only confuse the
jury with further technical terms that are not required
by the claim or clearly are in the specifications.
The adopted construction is: “an elongated screw
having a first end non-rotatably mounted to the carriage.”
Term 12: Said hollow hub and hollow drum being
sized such that the screw can move into the hollow
hub to allow the hollow drum to receive the screw
as the cables unwind from or wind up on the drum
The parties dispute whether construction is needed
for this term. Plaintiff’s proposed construction removes
references to the hollow hub and adds information about
the drum end cap that is not in the claim. This language
will only confuse the jury. No construction of this term
is necessary.
The adopted construction is: “said hollow hub and
hollow drum being sized such that the screw can move
into the hollow hub to allow the hollow drum to receive the
screw as the cables unwind from or wind up on the drum.”
Defendants’ Summary Judgment Motion for NonInfringement Is Denied
For literal infringement, Plaintiff bears the burden of
proving that “each limitation of the claim must be present
in the accused device.” Telemac Cellular Corp. v. Topp
Telecom, Inc., 247 F.3d 1316, 1330 (Fed. Cir. 2001).

81a
Appendix C
In addition to literal infringement, an accused device
can infringe under the doctrine of equivalents. This
doctrine states that “a product or process that does not
literally infringe upon the express terms of a patent
claim may nonetheless be found to infringe if there is
‘equivalence’ between the elements of the accused product
or process and the claimed elements of the patented
invention.” Depuy Spine, Inc. v. Medtronic Sofamor
Danek, Inc., 469 F.3d 1005, 1016 (Fed. Cir. 2006) (citing
Warner-Jenkinson Co. v. Hilton Davis Chem. Co., 520
U.S. 17, 21, 117 S. Ct. 1040, 137 L. Ed. 2d 146 (1997)). The
Supreme Court has noted that without the doctrine of
equivalents, “Unimportant and insubstantial substitutes
for certain elements could defeat the patent, and its value
to inventors could be destroyed by simple acts of copying.”
Festo Corp. v. Shoketsu Kinzoku Kogyo Kabushiki Co.,
535 U.S. 722, 731, 122 S.Ct. 1831, 152 L.Ed.2d 944 (2002).
The test for the doctrine of equivalents, known as the
function-way-result test, asks “whether the accused device
performs substantially the same function in substantially
the same way to obtain substantially the same result as the
claim limitation.” VirnetX, Inc. v. Cisco Systems, Inc., 767
F.3d 1308, 1322 (Fed. Cir. 2014). If that is the case, then
“they are the same, even though they differ in name, form,
or shape.” Warner-Jenkinson Co., 520 U.S. at 35 (quoting
Union Paper-Bag Machine Co. v. Murphy, 97 U.S. 120,
125, 24 L. Ed. 935, 1878 Dec. Comm’r Pat. 199 (1878)).

82a
Appendix C
Summary Judgment is Denied as to whether the
Accused Vortek Product Contains an Infringing
Base Member
The parties dispute whether the accused Vortek
winch has an infringing base member. The claim defines
the term as “a base member having first and second end
portions.” This term was constructed as: “One or more
components of the winch, including first and second end
portions, which are connected to and separate from the
carriage, supporting the drum.”
Under literal infringement, “each limitation in
the asserted claim [must be] found present in the
accused device or process.” Baxter Healthcare Corp. v.
Spectramed, Inc., 49 F.3d 1575, 1583 (Fed. Cir. 1995).
Here, to find literal infringement the Vortek winch must
have all of the elements of the claim construction for the
base member, which is not the case here because the
Vortek lacks a horizontal member.
The accused Vortek winch does not have one contiguous
base member, but instead has first and second end portions
that Plaintiff claims comprise the base member. The key
dispute is whether the components of the base member
must be connected to one another or can be separately
connected to the carriage. Either the first and second
vertical end portions must be connected by a horizontal
member or the horizontal member is only one embodiment
and is not dispositive. For literal infringement, there must
be a horizontal member.

83a
Appendix C
Plaintiff argues that a horizontal member cannot be
a requirement for the ’485 Patent when it was not included
in the claim. “[I]t is important to keep in mind that the
purposes of the specification are to teach and enable
those of skill in the art to make and use the invention,”
not to define the limits of a claim term. Phillips, 415 F.3d
at 1323. Olaf Sööt argues that here, to mandate that an
infringing device have a horizontal member based on the
specifications would be defining the limits of the claim
term instead of merely serving as a dictionary for how to
interpret the claim.
However, the patent specification is “always highly
relevant to the claim construction analysis” has been
described as “a dictionary when it expressly defines
terms used in the claims” and “the single best guide
to the meaning of a disputed term.” Vitronics Corp. v.
Conceptronic, Inc., 90 F.3d 1576, 1582 (Fed. Cir. 1996).
Here the parties hotly dispute what it means to have a
base member with first and second end portions, which
is not clear on its face.
All of the drawings displaying preferred embodiments
of the winch in the specifications (Figures 1, 2, 7, and 8)
show a version of the winch with a horizontal member.
While the horizontal member is not included in the actual
claim, it is included in the specifications. For example,
one specification describes the base (number 30 in the
drawings) as “the vertical members 31 and 32 incorporate
the geometry for all weld preparations necessary for
welding them to the horizontal member 33.” (’485 Patent
at 5:32-34.) The specification notes, “[O]ther means for

84a
Appendix C
constructing the base 30, or connecting its components
to each other, can be used.” (’485 Patent at 5:39-40.) The
specification clearly envisioned connecting the components
of the base member together and not having them be
separate.
There is no literal infringement in this case because
evaluating the claim language with the help of the
specifications, the ’485 Patent described a base member
with a horizontal member. The Vortek winch does not have
a base member and therefore it is not literally infringing.
However, the Vortek w inch’s base member is
infringing under the doctrine of equivalents. Finding
that there is no infringement for having a base member
that supports the drum, but lacks a horizontal member
would allow, “Unimportant and insubstantial substitutes
for certain elements could defeat the patent.” Festo Corp.,
535 U.S. at 731. The test for the doctrine of equivalents
asks “whether the accused device performs substantially
the same function in substantially the same way to obtain
substantially the same result as the claim limitation.”
VirnetX, Inc. v. Cisco Systems, Inc., 767 F.3d 1308, 1322
(Fed. Cir. 2014).
Here, the Vortek contains all of the required elements
of a base member. The constructions requires: (1) one
or more components, including first and second end
portions; (2) which are connected to and separate from
the carriage; and (3) which support the drum. The Vortek
product satisfies all three prongs under the doctrine of
equivalents. First, the Vortek has both an end portion

85a
Appendix C
base member and a front portion base member. Second,
both end portions are connected to the carriage (and are
separate from the carriage). Third, these components both
support the drum in the same way that the specifications
in the ’485 Patent support the drum. Under the doctrine of
equivalents, these two designs “are the same, even though
they differ in name, form, or shape.” Warner-Jenkinson
Co., 520 U.S. at 35 (quoting Union Paper-Bag Machine
Co. v. Murphy, 97 U.S. 120, 125, 24 L. Ed. 935, 1878 Dec.
Comm’r Pat. 199 (1878)).
The Accused Vortek Product Has an Equivalent
“First Means for Slideably Mounting the Base
Member to the Carriage”
The parties dispute whether the Vortek has the
means-plus-function clause “first means for slideably
mounting the base member to the carriage.” The function
of this term was constructed as “slideably mounting the
base member to the carriage providing relative linear
motion between the carriage and the base member.” The
structure was constructed as “two slides 45 that are
mounted to the carriage and engage linear bearings,
which can be a combination of 35A and 35B that are
mounted to the top of the base member’s first and second
end portions.”
The parties agree that the claim function should be
interpreted as “providing relative linear motion between
the carriage and the base member.” (See Plaintiff’s
Proposed Construction, Term 6, Dkt. No. 63, Ex. 2.) The
Defendants argue that the accused Vortek winch does

86a
Appendix C
not violate this function because one of the Vortek’s base
member end portions is bolted in place and does not allow
for any relative motion between the carriage and the base
member.
In order to make a finding of literal infringement for
a means-plus-function clause, the accused device must
“perform a function identical to that identified in the
means clause.” Ishida Co. v. Taylor, 221 F.3d 1310, 131617 (Fed. Cir. 2000). Here, the accused Vortek winch does
not perform an identical function to the means clause.
Unlike all of the specifications and drawings, which show
relative linear motion between the carriage and the base
member through two slides 45 and linear bearings 35A
and 35B (See Figures 1, 2, 3, 4, 5, 7, 8), the Vortek winch
does not have linear motion between the carriage and base
member because the front end vertical member is fixed
and bolted to the carriage. The rear end vertical member
in the Vortek winch is connected to the carriage by a slide
and linear bearings that allow the rear vertical member
to move relative to the carriage just as in the drawings
and specifications, such as Figure 3. There is no literal
infringement because the front end portion of the base
member cannot move relative to the carriage since the
front end vertical member of the base member and the
carriage are bolted together.
However, the pa r ties disput e whether there
is infringement under the doctrine of equivalents.
“Noninfringement under the doctrine of equivalents,
although a factual issue, may be determined as a matter of
law when no reasonable fact-finder could determine other

87a
Appendix C
than that the substitute element plays a role substantially
different from the claim limitation.” Unique Coupons,
Inc. v. Northfield Corp., 12 Fed. Appx. 928, 936 (Fed. Cir.
2001). Here, the Defendants have not met that burden
and the fact-finder must determine whether having one
end portion of the base member bolted in place and the
other slideably mounted to the carriage is “substantially
different.”
“The proper test” to determine whether the doctrine
of equivalents applies to a means-plus-function clause is
“whether the differences between the structure in the
accused device and any disclosed in the specification are
insubstantial.” Chiuminatta Concrete Concepts, Inc. v.
Cardinal Industries, Inc., 145 F.3d 1303, 1309 (Fed. Cir.
1998). Another way to state the test for a means-plusfunction term is, “The doctrine of equivalents covers
accused structures that perform substantially the same
function in substantially the same way with substantially
the same results. The doctrine of equivalents thus covers
structures with equivalent, but not identical, functions.”
Ring & Pinion Service Inc. v. ARB Corp. Ltd., 743 F.3d
831, 835 (Fed. Cir. 2014).
Here, there is no slide 45 or linear bearing 35A or
35B on the front end base member of the Vortek winch,
which is a difference in structure. Further, the front
end vertical member is bolted to the carriage. This
difference in structure prevents the Vortek winch from
having an identical function of the front end base member
slideably moving relative to the carriage. However, the
back end vertical member does have a slide 45 and linear

88a
Appendix C
bearings 35A and/or B. The back end member does slide
relative to the carriage in exactly the way that the patent
specifications dictate in Figures 1, 2, 3, 4, 5, 7, and 8.
The issue for this claim term is whether having part
of the base member slide relative to the carriage and
the other part remain bolted in place is a “substantial”
difference. Chiuminatta, 145 F.3d at 1309. In Chiuminatta
the difference between using a skid plate and wheels was
substantial under the doctrine of equivalents. Id. Here,
the difference is less substantial than in Chiuminatta
because the back end member of the Vortek winch
slides using exactly the same linear bearing technology
described and depicted in the specifications instead of an
entirely different technology like wheels or skid plates in
Chiuminatta.
Likewise, in Interactive Pictures Corp. v. Infinite
Pictures, Inc., the Federal Circuit evaluated whether an
image viewing system that is a digitized image collected
from a fisheye lens camera was equivalent to the accused
product. Interactive Pictures Corp. v. Infinite Pictures,
Inc., 274 F.3d 1371, 1382 (Fed Cir. 2001). The parties
disputed whether there was infringement under the
doctrine of equivalents because the accused product also
produced a circular view of an image, but with no fisheye
distortion by using an equirectangular panorama file
instead of the fisheye lens camera. Id. Those two products
have a substantially greater variance in structure because
they use entirely different technologies to achieve a
similar result as compared to the ’485 Patent and the
Vortek, which is at least half the identical structure

89a
Appendix C
in the base member. There is no dispute that the ’485
Patent and the Vortek winches achieve exactly the same
result of lifting and lowering scenery for theatres using
a motorized winch. While the accused product used an
entirely different technology achieving a slightly different
end result in Interactive Pictures, the Court refused to
overturn a jury’s determination that “the difference was
insubstantial.” Id. If a jury could find those differences
insubstantial, the factfinder in this case should be
permitted to make the same determination under the
function-way-result test.
Defendants have not shown that “no reasonable
factfinder could determine other than that the substitute
element plays a role substantially different from the claim
limitation.” Unique Coupons, Inc., 12 Fed. Appx. at 936.
While there are clear differences in the sliding nature of
the front end vertical base member, the differences are not
substantial enough to preclude a factfinder determining
that there was infringement. Ring & Pinion, 743 F.3d at
835. For these reasons, this means-plus-function clause
creates a disputed issue of fact for the factfinder to
determine.
The Accused Vortek Product Includes an “Elongated
Screw Having a First End Non-Rotatably Mounted
to the Carriage”
The parties dispute whether the accused Vortek
winch has an infringing “elongated screw having a first
end non-rotatably mounted to the carriage.” There was
no construction necessary for this term.

90a
Appendix C
For this term, the dispute is whether the elongated
screw is actually mounted to the carriage. The Vortek
winch has an elongated screw that is non-rotatably
mounted to what the parties describe as a “tail-end
bracket.” This bracket is attached to the carriage and
is bolted to the front vertical member. The dispute is
whether the tail-end bracket is part of the carriage or
the base member. If it is a part of the base member, the
Vortek is not infringing on the ’485 patent. If it is part of
the carriage, then the Vortek is infringing.
The claim language does not provide any detail
about the difference between the carriage and the base
member’s first and second end portions. In the absence
of explanation from the claim, “the court looks to those
sources available to the public that show what a person
of skill in the art would have understood disputed claim
language to mean,” which includes evaluating a claim term
“not only in the context of the particular claim in which
the disputed term appears, but in the context of the entire
patent, including the specification.” Phillips v. AWH Corp.,
415 F.3d at 1313-14 (internal citations omitted).
Under literal infringement, the Vortek does not
literally infringe because each of the drawings that
depict the carriage and base member do not have them
attached to one another as one tail-end bracket like in the
Vortek winch. However, the accused Vortek construction
is infringing under the doctrine of equivalents. This
is because the variances for the elongated screw are
“[u]nimpor tant and insubstantial substitutes” in
comparison to the patent specifications. Festo Corp. v.
Shoketsu Kinzoku Kogyo Kabushiki Co., 535 U.S. at 731.

91a
Appendix C
The carriage can include the tail-end bracket under
the doctrine of equivalents because the carriage is
more than one piece in each of the embodiments in the
specifications. The pieces of the carriage are connected
together just as the tail-end bracket is attached to the
carriage in the Vortek winch in Figures 1, 2, 7 and 8.
Figure 1 is described in the specifications as having a
“carriage 40 frame 41 [that] is L-shaped comprising a
horizontal member 41A and a vertical member 41B.”
(’485 Patent at 5:40-42.) This demonstrates that the ’485
Patent covers embodiments of the winch that have several
different shapes and sizes of carriage frames.
The test for the doctrine of equivalents, known as the
function-way-result test, asks “whether the accused device
performs substantially the same function in substantially
the same way to obtain substantially the same result as
the claim limitation.” VirnetX, Inc. v. Cisco Systems,
Inc., 767 F.3d 1308, 1322 (Fed. Cir. 2014). If that is the
case, then “they are the same, even though they differ in
name, form, or shape.” Warner-Jenkinson Co., 520 U.S.
at 35 (quoting Union Paper-Bag Machine Co. v. Murphy,
97 U.S. 120, 125, 24 L. Ed. 935, 1878 Dec. Comm’r Pat.
199 (1878)). Here while the carriage does differ in form or
shape from the exact configuration in the drawings and
specifications, the way in which the elongated screw is
non-rotatably mounted to the carriage is essentially the
same and is infringing under the doctrine of equivalents.

92a
Appendix C
Summary Judgment is Denied Because a Reasonable
Factfinder Could Find Infringement for Each Term
Summary judgment on the issue of non-infringement
is proper when “no reasonable jury could find that every
limitation recited in a properly construed claim either is or
is not found in the accused device either literally or under
the doctrine of equivalents.” Spiel Associates v. Gateway
Bookbinding Sys., No. 03-CV-4696, 2010 U.S. Dist. LEXIS
13167, 2010 WL 546746, at *6 (E.D.N.Y. Feb. 16, 2010)
(citing PC Connector Solutions LLC v. SmartDisk Corp.,
406 F.3d 1359, 1364 (Fed.Cir.2005)); see also, Mich & Mich.
TGR, Inc. v. Brazabra, Corp., 128 F.Supp.3d 621, 631
(E.D.N.Y. 2015). In this case, a reasonable jury could find
that the base member, first means for slideably mounting
the base member to the carriage, and elongated screw
having a first end non-rotatably mounted to the carriage
are infringing. Plaintiff urges the Court to sua sponte find
infringement, but Plaintiff has not met the high burden
to show that Defendants made a “woefully inadequate
showing.” Gertrude Newmark Rothschild v. Cree, Inc.,
711 F.Supp.2d 173, 195 (D. Mass. 2010).
Conclusion
Based on the conclusions set forth above and the claim
constructions determined by the Court, the motion for
summary judgment on non-infringement is denied.
It is so ordered.
New York, NY
October 26, 2016

/s/ Robert W. Sweet
ROBERT W. SWEET
U.S.D.J.

93a
AppendixOF
D REHEARING OF
APPENDIX D — DENIAL
THE UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT, DATED APRIL 19, 2021
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT
2020-1009, 2020-1034
OLAF SOOT DESIGN, LLC,
Plaintiff-Cross-Appellant,
v.
DAKTRONICS, INC.,
Defendant-Appellant.
Appeals from the United States District Court for
the Southern District of New York in No. 1:15-cv-05024GBD-OTW, Judge George B. Daniels.
ON PETITION FOR PANEL REHEARING
AND REHEARING EN BANC
Before Prost, Chief Judge, Newman, Lourie, Dyk,
Moore, O’M alley, Reyna , Wallach, Taranto, Chen,
Hughes, and Stoll, Circuit Judges.
Per Curiam.

94a
Appendix D
ORDER
Olaf Sööt Design, LLC filed a combined petition for
panel rehearing and rehearing en banc. A response to the
petition was invited by the court and filed by Daktronics,
Inc. The petition was referred to the panel that heard
the appeal, and thereafter the petition for rehearing en
banc was referred to the circuit judges who are in regular
active service.
Upon consideration thereof,
It Is Ordered That:
The petition for panel rehearing is denied.
The petition for rehearing en banc is denied.
The mandate of the court will issue on April 26, 2021.
April 19, 2021 		
For The Court
Date
				/s/ Peter R. Marksteiner
				Peter R. Marksteiner
				Clerk of Court

